<html>
<title> - HOUSING D.C. FELONS FAR AWAY FROM HOME: EFFECTS ON CRIME, RECIDIVISM AND REENTRY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





 HOUSING D.C. FELONS FAR AWAY FROM HOME: EFFECTS ON CRIME, RECIDIVISM 
                              AND REENTRY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2010

                               __________

                           Serial No. 111-77

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform





                  U.S. GOVERNMENT PRINTING OFFICE
58-348 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LEUTKEYEMER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSPEH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             BRIAN P. BILBRAY, California
ELIJAH E. CUMMINGS, Maryland         ANH ``JOSEPH'' CAO, Louisiana
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 5, 2010......................................     1
Statement of:
    Lappin, Harley, Director, Federal Bureau of Prisons; Adrienne 
      Poteat, Deputy Director, Court Services and Offender 
      Supervision Agency; Nancy LaVigne, director, Justice Policy 
      Center, the Urban Institute; Philip Fornaci, executive 
      director, D.C. Prisons Project; Andrew Cook, former Federal 
      Bureau of Prisons Inmate; and Louis Sawyer, former Federal 
      Bureau of Prisons Inmate...................................    17
        Cook, Andrew.............................................    60
        Fornaci, Philip..........................................    46
        Lappin, Harley...........................................    17
        LaVigne, Nancy...........................................    39
        Poteat, Adrienne.........................................    29
        Sawyer, Louis............................................    60
Letters, statements, etc., submitted for the record by:
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, prepared statement of.......................     7
    Fornaci, Philip, executive director, D.C. Prisons Project, 
      prepared statement of......................................    48
    Lappin, Harley, Director, Federal Bureau of Prisons, prepared 
      statement of...............................................    19
    LaVigne, Nancy, director, Justice Policy Center, the Urban 
      Institute, prepared statement of...........................    41
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts, prepared statement of..............     3
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................    11
    Poteat, Adrienne, Deputy Director, Court Services and 
      Offender Supervision Agency, prepared statement of.........    31

 
 HOUSING D.C. FELONS FAR AWAY FROM HOME: EFFECTS ON CRIME, RECIDIVISM 
                              AND REENTRY

                              ----------                              


                         WEDNESDAY, MAY 5, 2010

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:47 p.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Davis, Cummings, 
and Chaffetz.
    Staff present: William Miles, staff director; Aisha 
Elkheshin, clerk/legislative assistant; Adam Fromm, minority 
chief clerk and Member liaison; Howard Denis, minority senior 
counsel; and Mitchell Kominsky, minority counsel.
    Mr. Lynch. Good afternoon. The Subcommittee on the Federal 
Workforce, Postal Service, and the District of Columbia will 
now come to order. I apologize for the delay, the slight delay 
in starting. We had votes on the floor.
    But let me welcome all of the Members. I am told that Mr. 
Chaffetz, the ranking member, will be along shortly. He as well 
was on the floor.
    But to all of our Members, subcommittee hearing witnesses, 
and all those in attendance, the purpose of the hearing today 
is to examine the criteria used to determine the placement of 
D.C. Code offenders, as well as to discuss the rehabilitation 
and reintegration challenges that these individuals face as a 
result of being in prison so far from their homes and 
supportive networks.
    The chair, the ranking member, and the subcommittee members 
will each have 5 minutes to make opening statements, and all 
Members will have 3 days to submit statements for the record.
    Ladies and gentlemen, again, let me welcome you to this 
subcommittee, D.C.-related oversight hearing entitled, 
``Housing D.C. Code Felons Far Away From Home: The Effects on 
Crime, Recidivism and Reentry.'' Today's hearing gives the 
subcommittee the opportunity to examine the criteria used to 
determine the placement of D.C. Code offenders. In addition, we 
will examine the unique rehabilitation and reintegration 
challenges faced by these individuals as a result of being 
imprisoned such a far distance from their homes and support 
networks.
    As you may know, the National Capital Revitalization and 
Self-Government Improvement Act of 1997, also known as the 
Revitalization Act, transferred the responsibility and costs 
associated with certain State criminal justice functions, 
including housing, parole and supervised release of adult 
felons convicted under the D.C. Code, D.C. Criminal Code, from 
the District of Columbia to various Federal Government 
agencies. While considerable progress has been made over the 
past 10 years since the enactment of the Revitalization Act, a 
host of challenges regarding the implementation of 
effectiveness on felon supervision, reentry and revocation 
systems and practices remain.
    Notably, D.C. Code felons are unique in that they are 
routinely housed hundreds of miles away from their homes. In 
addition to placement in the District of Columbia, nearly 5,700 
D.C. Code felons are housed in 33 States in facilities owned or 
leased by the Federal Bureau of Prisons. While the majority of 
these individuals reside in facilities located in Pennsylvania, 
North Carolina, and West Virginia, some D.C. Code felons 
receive placement in States as far away as Florida, Texas, and 
California.
    In recognition of the challenges posed by distant 
placement, the Federal Bureau of Prisons, pursuant to a 1998 
Memorandum of Understanding executed with the District of 
Columbia, seeks to house each inmate within 500 miles of their 
home. However, a variety of factors, including the availability 
of beds, security concerns, and individual prisoner medical 
needs, may affect that placement. Accordingly, today's hearing 
is intended to both examine the Federal Bureau of Prisons 
offender placement process and procedures, as well as explore 
how the issues of distance impacts the reentry process.
    With research suggesting that prisoners who have regular 
contact with members of their family have lower recidivism 
rates than those who do not, placement far away from the home 
makes the reentry process especially hard for D.C. ex-
offenders. Ex-offenders also face many barriers that impede 
their return to society, including a lack of education and 
minimal employment qualifications.
    I would like to especially thank my colleague and friend, 
Congresswoman Eleanor Holmes Norton, for her tireless work in 
this policy area and her work on keeping me up-to-date and 
pushing on this issue. The subcommittee looks forward to 
continuing to work with her and her office as we conduct 
oversight on this issue, as well as other members of the 
committee.
    Again, I thank all of those in attendance this afternoon, 
and I look forward to hearing the testimony of our witnesses. I 
now yield to the ranking member, Mr. Chaffetz, for 5 minutes 
for an opening statement.
    [The prepared statement of Hon. Stephen F. Lynch follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Chaffetz. Thank you, Mr. Chairman. And thank you all 
for being here and for your insight that we will be hearing 
from today.
    At the onset, let me just say that this is one of the 
critical roles and functions of our government. You know, for 
most campaigns people will tell you you are not going to win or 
lose an election based on what happens with the Bureau of 
Prisons and these types of issues unless something has really, 
really gone awry. But for me personally, I think it is one of 
those core functions that government should do and execute 
well, and is a duty and a service to the public.
    We also have to recognize that most people will be 
returning to the public for instance, in my State, we refer to 
it as the Department of Corrections. But I often wonder are we 
doing enough to actually correct this behavior so that people 
can return to their public life, you know, go back into society 
and be productive members of that society. And so this is a 
long-term interest for me personally, and I appreciate holding 
this hearing.
    I was not elected to Congress yet, when the Lorton facility 
was shut down in 2001. However, from what I understand, a 
number of congressional leaders from both sides of the aisle 
worked together, in both the Clinton and the Bush 
administrations, to facilitate the transfer of the D.C. 
prisoners to a newly built facility in North Carolina. And it 
is my understanding this change was much needed, and a high 
priority for the local congressional delegation because of the 
extremely sub-par conditions at the Lorton facility.
    In transferring inmates, the District of Columbia got a 
safe new facility at no cost to the city. Since the Federal 
Government absorbed the cost, the subcommittee has heard about 
conditions and programs in the facility and others where D.C. 
felons are housed.
    On October 16, 2007, our predecessors on the subcommittee 
held a hearing entitled ``Doing Time,'' which focused on D.C. 
prisoners being prepared for reentry with access to the Bureau 
of Prisons services. On September 22, 2009, we held a hearing 
on the local role of the U.S. Parole Commission, which focused 
on alternatives to incarceration within the District of 
Columbia. And on February 3rd of this year we held a hearing on 
halfway houses in the District of Columbia with testimony from 
many of the same entities we will hear from today.
    This additional view today is welcome, and we do appreciate 
your time. I remain interested in how the Bureau of Prisons and 
the Court Services and Offender Supervision Agency work 
together to reduce recidivism. We all want ex-offenders to 
return safely to their communities, and this transition is 
difficult.
    Proximity of jailed offenders to their communities is also 
a key factor for inmates and their families. But it is clear 
that released offenders can best succeed if they are sober, 
employed, and have a place to live. Otherwise, they are highly 
likely to go through the revolving door of the criminal justice 
system.
    Again, I think there is a proper role of government to help 
those that are in need of making those transitions back into 
their communities. How we best do that in a cost effective 
manner but, at the same time, wanting people to become self-
sufficient and get back on their feet, I think is critical.
    That is why I appreciate bringing up this hearing today. I 
appreciate your insight and look forward to learning more about 
the issue.
    With that, I will yield back the balance of my time, Mr. 
Chairman.
    [The prepared statement of Hon. Jason Chaffetz follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. I thank the gentleman. The chair now recognizes 
the gentlelady from the District of Columbia, Ms. Eleanor 
Holmes Norton, for 5 minutes for an opening statement.
    Ms. Norton. Thank you, Mr. Chairman. And may I again thank 
you for always being willing to hold hearings on matters of 
importance to the District of Columbia. And I would like to 
simply summarize my opening statement and to say that of all 
the matters you could, in fact, hold a hearing on, nothing is 
more important than guaranteeing public safety in the District 
of Columbia, as well as facilitating reentry of our men and 
women who are now spread across the United States in prisons, 
many of them far from home, as a result of the Revitalization 
Act, affording very little contact with their families or with 
services and making reentry a huge challenge to the city and to 
the inmates themselves and to the Federal agencies, including 
the BOP, who must work with them.
    Mr. Chairman, we do not ask, in this hearing, for changes 
in the Revitalization Act. We recognize that the District of 
Columbia asked for this change. It wanted Lorton closed. Lorton 
was anything but a model prison. It wanted it taken off of its 
budget, and there are many advantages to the Bureau of Prisons. 
In my judgment, the Bureau of Prisons is the best prison system 
in the world. Now, that may not say much when you consider what 
prisons look like in most of the world, but if you have visited 
the Bureau of Prisons, I think you would agree that it is a 
fine prison.
    The real question is, does it meet the challenges that 
Congress posed when, for the first time in U.S. history, 
Congress placed a State prison system within the Federal prison 
system. Now, you can put them there and spread them out as if 
they were all Federal prisoners. They are not. There are 5,700 
of these D.C. Code offenders, and I think it blows the mind, 
Mr. Chairman, to recognize that they are in 115 different 
facilities in 33 States throughout our country. There are no 
State prisoners who face this kind of dispersal, lack of access 
to families, and to services for all that means for them, for 
the city, and for the city to which they must return. In fact, 
best practices make clear what happens, frankly, in every 
State, that from the time an inmate is in the criminal justice 
system to the time he is released and post-release, the 
authorities have a relationship with him that must assure his 
successful reentry. So that if we were in Maryland or Virginia 
State system, for example, that these services, these parts of 
the criminal justice system would all be working together with 
the offender.
    Now, the challenge created here is that we are dealing 
with, in our Federal system, Federal agencies like the Bureau 
of Prisons and CSOSA on the one hand, and facilities here in 
the District, not to mention the Parole Commission on the 
other. So you have a meeting of State and local agencies that 
will call for greater understanding and coordination and, 
frankly, creativity to, in fact, deal with this unprecedented 
challenge in our city.
    For example, the Bureau of Prisons doesn't have to be as 
nearly in touch with the local needs of a city the way it 
should occur when they have this set of State prisoners in 
their midst. Prison, parole, and supervision agencies in each 
State serve only offenders in that State. That is not the case 
here. It doesn't mean it is impossible to deal with. One of the 
challenges we will be hearing from if you are in a State prison 
system you are closer in touch, for example, with the resources 
and skills necessary to get a job. That is going to be pretty 
hard if you are in North Dakota or Arizona or Wyoming or 
wherever BOP has sent you.
    You are learning a skill, I am pleased to say. I have gone 
to BOP facilities, impressed with what they do in vocational 
training. It doesn't have much relationship to what these men 
and women will find when they get back home. Almost none of 
these facilities can be called close to home. CSOSA tries to do 
what it can. It can reach only a fraction of those who will be 
returning home.
    Mr. Chairman, I will be absolutely candid. I think the 
answer is placing D.C. Code felons in one BOP facility closer 
to D.C., men, women and, yes, we have children all the way in 
North Dakota. They should be brought home right now and made 
closer to home. In the meantime, we can do a better job of 
coordinating reentry and the needs of these D.C. Code felons 
for some contact with their family before, all of a sudden, out 
of prison, into the District they are expected to somehow act 
as they would if they had been in an ordinary State prison 
where they would have had access to their families, to some 
sense of services, and to the true integration into reentry.
    So Mr. Chairman, this is a very important hearing for the 
District of Columbia. I couldn't thank you and the ranking 
member more for assuring this hearing today.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Lynch. Thank you. Before I read the introductions of 
our panelists, it is the custom of this committee to ask anyone 
who is going to offer testimony before the subcommittee to be 
sworn. So could I ask you all to rise and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that all the witnesses have 
answered in the affirmative. Let me begin with Mr. Lappin.
    Harley Lappin has served as the Director of the Federal 
Bureau of Prisons since April 4, 2003. A career public 
administrator in the Federal Bureau of Prisons, Mr. Lappin is 
responsible for the oversight and management of the Bureau's 
115 institutions and for the safety and security of more than 
210,000 inmates under the agency's jurisdiction.
    Deputy Director Adrienne Poteat serves as the agency head 
of the Court Services and Offenders Supervision Agency [CSOSA], 
for the District of Columbia. In this position, Ms. Poteat 
oversees a Federal agency of nearly 1,300 employees, which was 
created by the D.C. Revitalization Act of 1997 to improve 
public safety through active community monitoring and 
supervision of ex-offenders.
    Ms. Nancy LaVigne is the current director of the Justice 
Policy Center at the Urban Institute. Ms. LaVigne is an expert 
on crime prevention and prisoner reentry and is the founding 
Director of the U.S. Department of Justice's Mapping and 
Analysis for Public Safety Program.
    Mr. Philip Fornaci joined the D.C. Prisoners Legal Services 
Project as executive director in August 2003. In addition to 
his primary management and the fundraising responsibilities, 
Mr. Fornaci also manages the D.C. Prisoners Legal Services 
Project public policy work, which is aimed at advocating for 
the humane treatment and dignity of all persons convicted, 
charged or formally convicted with a criminal offense under the 
District of Columbia law.
    Mr. Andrew Cook is a former D.C. Code offender and Bureau 
of Prisons inmate. Having only been recently released from 
prison, Mr. Cook is continuing his effort to reintegrate back 
into society by participating in various transitional programs 
and by searching for employment opportunities.
    Mr. Louis Sawyer is a current parolee under the supervision 
of Court Services and Offender Supervision Agency. Mr. Sawyer 
was released from prison earlier this winter and is presently 
participating in a job training program with the organization, 
So Others Might Eat.
    I know some of you have testified here before, so I want to 
thank you all for offering your advice and counsel to the 
committee. I would now like to give each witness an opportunity 
for a 5-minute opening statement.
    Mr. Lappin, you are now recognized for 5 minutes.

   STATEMENTS OF HARLEY LAPPIN, DIRECTOR, FEDERAL BUREAU OF 
 PRISONS; ADRIENNE POTEAT, DEPUTY DIRECTOR, COURT SERVICES AND 
 OFFENDER SUPERVISION AGENCY; NANCY LaVIGNE, DIRECTOR, JUSTICE 
 POLICY CENTER, THE URBAN INSTITUTE; PHILIP FORNACI, EXECUTIVE 
  DIRECTOR, D.C. PRISONS PROJECT; ANDREW COOK, FORMER FEDERAL 
  BUREAU OF PRISONS INMATE; AND LOUIS SAWYER, FORMER FEDERAL 
                    BUREAU OF PRISONS INMATE

                   STATEMENT OF HARLEY LAPPIN

    Mr. Lappin. Good afternoon, Chairman lynch and members of 
the subcommittee. Congresswoman Norton, thank you for your kind 
comments during your opening statement. I appreciate the 
opportunity to appear before you today to discuss the Bureau of 
Prisons designation process, particularly as it affects the 
reentry needs of offenders from the District of Columbia.
    The Bureau of Prisons is the Nation's largest corrections 
system. We are responsible for the incarceration of more than 
211,000 inmates, including 5,408 inmates convicted in the 
District of Columbia Superior Court. We refer to this 
population as D.C. Code offenders. We appreciate the unique 
role the BOP plays in the District of Columbia.
    While the number of D.C. Code offenders is relatively small 
compared to the entire inmate population, we devote substantial 
resources to ensure they receive appropriate care and 
treatment. Given our decades of experience, we know that 
consistency is critical to effectively achieving our mission. 
For this reason, we employ a validated objective classification 
system to designate all inmates. Our policy is to initially 
designate each inmate to the lowest security level possible, 
given medical, security and program needs in an institution 
within 500 miles of the anticipated release area. This is 
consistent with requirements of the Memorandum of Understanding 
between the District and the Office of Management and Budget 
that was signed in 1997 as a precursor to the National Capitol 
Area Revitalization Act.
    Crowding in Federal prisons across the country has had a 
profound impact on our inmate designation process. We have 
experienced significant increases in the inmate population over 
the last 2 decades. The Bureau of Prisons is operating at 37 
percent over rated capacity systemwide, with high security 
institutions operating at 51 percent over capacity and medium 
security institutions operating at 46 percent over rated 
capacity.
    Stated quite simply, this level of crowding means there are 
not always available beds for offenders as close to their homes 
as we would like. Crowding poses real risks to inmate safety. 
Additionally, prison composition can greatly impact safety and 
security. Inmates in the Federal prisons across the country 
have repeatedly demonstrated their proclivity to organize based 
on geographical area, gang affiliation, racial and ethnic 
background, and they have further demonstrated that such 
organization can lead to misconduct and attempts to severely 
disrupt prison operations.
    Accordingly, we make every effort to distribute the inmate 
population across facilities such that we balance the various 
factors noted above. We have found that this balance is 
critical to operating safe and secure prisons.
    Inmate health care needs impact designations, particularly 
for inmates with medical conditions that require significant 
treatment. These inmates typically are designated to a medical 
care Level 3 facility or a Federal medical center. Only six of 
these are within 500 miles of the District of Columbia. 
Location itself creates designation pressures.
    We have little control over where prisons are built and 
many are sited in very remote locations. We have made clear in 
the past our strong desire to site a prison in the D.C. area. 
As Congresswoman Norton will recall, we fought hard to secure 
just a small portion of the Lorton property during the 
negotiations over the Revitalization Act. We were unsuccessful 
in those efforts and had to look elsewhere to construct 
facilities to absorb the D.C. sentenced felons into our system.
    We remain committed to the goal of housing the majority of 
D.C. Code offenders within 500 miles of the District, and we 
have been quite successful in meeting this goal, with over 75 
percent of them currently confined in institutions within 500 
miles of the District.
    Four categories of offenders, however, are likely to 
continue to be housed outside of that radius, inmates with 
special management and security needs, inmates with significant 
medical needs, inmates who engage in significant misconduct, 
and high security sex offenders.
    Mindful of our role as the State Department of Corrections 
for the District, we provide specialized programming and 
opportunities for D.C. offenders that will help facilitate 
their successful reentry, while ensuring that they are housed 
in safe and appropriately secure facilities.
    We provide enhanced reentry programs at Rivers, to include 
a residential drug abuse program that allows eligible inmates 
to earn up to 1 year off their sentence.
    We have a trauma treatment program for female offenders at 
Hazelton, WV. We have residential reentry centers that service 
three D.C. facilities, to include Hope Village, which is the 
largest RRC in the Nation. And finally, we continue to 
collaborate with Court Services and Offender Supervision 
Agencies on transitional issues.
    Chairman Lynch, this concludes my formal statement. Again, 
I thank you and the members of the committee for your support 
of our agency and will be happy to answer questions that you 
may have of me.
    [The prepared statement of Mr. Lappin follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. Thank you, Mr. Lappin.
    Ms. Poteat, you are now recognized for 5 minutes for an 
opening statement.

                  STATEMENT OF ADRIENNE POTEAT

    Ms. Poteat. Good afternoon, Chairman Lynch, Ranking Member 
Chaffetz, Congresswoman Norton, and members of the 
subcommittee. I am pleased to appear before you today at this 
hearing to examine the impact of housing D.C. inmates far from 
home.
    As the Deputy Director of the Federal agency responsible 
for supervising approximately 16,000 men and women, I know 
firsthand that the foundation for an individual's successful 
reentry starts with time spent in prison. If credible 
opportunities for treatment, education and occupational 
training are available and taken advantage of, and then 
comprehensive release planning occurs, a person can leave 
prison with a real chance to pursue a positive and constructive 
way of life.
    Approximately 6,000 D.C. Superior Court sentenced inmates 
are now serving their sentence in the Federal Bureau of 
Prisons' facilities around the country. Since our agency was 
established in August 2000, incarcerated men and women have 
returned to the District of Columbia at a rate of about 2,200 
per year.
    CSOSA's Transitional Intervention for Parole Supervision 
[TIPS] teams, are primarily responsible for facilitating an 
inmate's return home from prison, either transitioning through 
a residential reentry center or directly to the community. BOP 
case managers submit a release plan to CSOSA that includes the 
inmate's proposed living arrangement and, when available, the 
potential employment. The TIPS community supervision officers 
investigate their release plans to ensure they are conducive to 
a successful reentry and do not pose a risk to the community.
    About 6,400 of the 16,000 men and women under supervision 
are either on parole or supervised release. Most have long 
histories of substance abuse, educational underachievement, and 
underemployment; 80 to 90 percent of this population reports a 
history of illicit drug abuse. They have low rates of high 
school or GED completion, and only 40 percent report stable 
housing arrangements upon intake. Less than 40 percent are 
employed. Many of them also face challenges reuniting with 
their families and establishing pro-social relationships. These 
conditions can have a significant impact on the success of 
community supervision.
    However, it is well recognized that when effective work on 
these matters can be accomplished during incarceration, the 
prospective for successful reentry is increased. It was toward 
that end that in 2003 CSOSA launched an initiative at the 
Rivers Correctional Facility in Winton, NC. We chose Rivers 
because of the large number of offenders housed there at the 
time, and it was approximately 225 miles away from the 
District. At the time it was 1,100 offenders there. Now they 
have approximately 500 to 600 offenders in that facility.
    Our work at Rivers began with the implementation of a video 
mentoring as part of our faith-based community partnership. The 
program linked inmates nearing release with faith-based mentors 
who provided pre-release encouragement and post-release 
support. This program was an extension of an existing effort 
started the previous year where volunteer mentors from local 
faith institutions were matched with re-entrants transitioning 
through the halfway house. We believed that by making matches 
earlier, we could better prepare the mentees for reentry and 
lay the foundation for post-release.
    CSOSA installed video conferencing systems at Rivers and at 
our headquarters to allow mentors and mentees to have face-to-
face conversations about job development, locating stable 
housing, and establishing new and more positive leisure time 
activities and friendships. Family members were also present 
during some of these sessions.
    In October we began conducting Community Resource Day for a 
group of 200-plus offenders at Rivers. During this program, we 
piloted it by transporting several of our vendors to Winton, 
NC. After that we began doing these sessions by video 
conferencing. That way we were able to expand some of the 
vendors that were participating in our Resource Day. They 
included presentations by the U.S. Parole Commission, BOP, and 
Hope Village, our community supervision officers, local job 
training providers, the D.C. State Superintendent of Education 
and the Community College of the District of Columbia, the 
Housing Counseling Service and Jubilee Housing, Unity Health 
Care and the D.C. HIV/AIDS Administration, among others. 
Surveys by both our providers and offenders were very positive, 
and they were completely satisfied with that program.
    Now, we suspended the mentoring program in 2007 after 
expanding the community-based mentoring program to include men 
and women on probation. This increased demand for mentors and 
quickly exhausted our available pool. However, we plan to 
reinstitute this video conferencing by including the women in 
Hazelton, WV, who are also now participating in a pilot program 
conducted by Our Place.
    Last fall, with the cooperation of the BOP, we developed 
and distributed Community Resource Day packages to all of the 
offenders and all of the institutions and BOP facilities. We 
have been asked to send additional packets, which the inmates 
found very useful. The response has been overwhelming, 
positive, and we continue to receive requests.
    Thank you very much for the opportunity to participate in 
today's hearing, and I look forward to answering any questions 
that you may have.
    [The prepared statement of Ms. Poteat follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. Thank you, Ms. Poteat.
    Ms. LaVigne, you are now recognized for 5 minutes for an 
opening statement.

                   STATEMENT OF NANCY LaVIGNE

    Ms. LaVigne. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to speak today about the 
implications of D.C. felons being housed far from their homes.
    I am Director of the Justice Policy Center at the Urban 
Institute, where we've conducted extensive research on the 
topic of prisoner reentry. We've documented the many challenges 
of prisoner reentry, and we've conducted studies to identify 
the factors that predict both successful prisoner reintegration 
as well as recidivism.
    Among these studies we've specifically examined D.C. Code 
felons. We've learned that, like their counterparts throughout 
the country, incarcerated D.C. Code felons return home in need 
of health care, drug treatment, jobs, and affordable shelter. 
But D.C. felons face an unusual incarceration experience in 
that they are typically incarcerated hundreds of miles from 
their families, their potential employers, and post-release 
services. In fact, over 20 percent of these felons are housed 
more than 500 miles from their homes. This compares to a 
national average for the average State prisoner of about 100 
miles from their home, still pretty far, but their experience 
is much more severe in that regard.
    So why is distance an important issue? Research points to 
two reasons. First, it can diminish family support and, second, 
it makes finding treatment and services difficult.
    Let's focus on the family issue first. Our studies have 
found that families are an important influence on the reentry 
process and they provide much needed support to returning 
prisoners. Both emotional support and tangible support, such as 
housing and financial assistance, are associated with higher 
employment rates and reduced substance use after their release. 
This support from families, however, is not a given. Rather, it 
is closely linked to the nature and type of contact that 
prisoners have with their family members, their parents, their 
intimate partners and their children prior to their release.
    In fact, our research has found that in-prison contact with 
family members is predictive of the strength of family 
relationships following release. Other studies have shown that 
family contact during incarceration is associated with lower 
recidivism rates. Such contact can maintain or reinforce 
attachments to children, giving exiting prisoners a greater 
stake in conformity upon release.
    We have learned that exiting male prisoners who have strong 
positive attachments to their children tend to be legally 
employed for longer periods of time than fathers who have 
weaker ties to their kids. Maintaining and even strengthening 
family ties during incarceration can bolster the positive 
impact that family can have after a prisoner's release.
    But our surveys of family members of prisoners found that 
the single greatest barrier to maintaining contact was that 
prison was far from their homes. Clearly, the closer prisoners 
are housed to their homes, the more contact they will have with 
family.
    Now, let's turn to the second reason that distance creates 
problems for returning prisoners. In addition to family 
support, ties to post-release jobs and reentry services are 
vital for reentry success. Research finds that the most 
effective reentry programs begin behind bars and continue in 
the community.
    Now, we work with a lot of State prison administrators and 
we hear them lamenting about how difficult it is for them to 
link up people who are housed in prisons often far from their 
homes to services because they tend to live in cities rather 
than in the remote areas where prisons are located. But at 
least those administrators are working within the same State 
system. By contrast, the reentry planners working with D.C. 
felons are operating with different systems and in a diverse 
set of States across the country.
    The distance between a correctional facility and the 
prisoner's post-release destination makes connecting with 
employment, housing, substance abuse treatment, faith-based 
institutions, and a whole host of other reentry resources all 
the more difficult.
    Now, to be fair, there are some likely downsides to housing 
prisoners close to home. From a correctional security 
standpoint, if the felons are closer to home visitation will go 
up, and with increased visitation there could be more 
possibilities for the introduction of contraband into the 
facility. And if D.C. Code felons are housed in fewer prisons 
closer to home, correctional officers would need to monitor the 
potential for gang violence more closely.
    These are real risks, but I believe they're far outweighed 
by the documented benefits of housing prisoners close to home. 
With all the challenges associated with the reentry of D.C. 
felons, this is one change that could have a real positive 
impact, not only on the successful transition of those 
returning home from prison, but also on the safety and well-
being of the families and communities to which they return.
    In the meantime, efforts to facilitate connections between 
prisoners and post-release service providers through the use of 
video conferencing should be supported and expanded, and they 
should also include contact with family members.
    Thank you for your time. I welcome any questions you may 
have.
    [The prepared statement of Ms. LaVigne follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. Thank you, Ms. LaVigne.
    Mr. Fornaci, you are now recognized for 5 minutes.

                  STATEMENT OF PHILIP FORNACI

    Mr. Fornaci. Thank you, Mr. Chairman. And thank you, 
Congresswoman Norton, for the opportunity to provide testimony, 
and thank you also to Congresswoman Norton for your work on 
this issue.
    My name is Philip Fornaci. I serve as director of the D.C. 
Prisoners' Project, the Washington Lawyers' Committee. We 
advocate on behalf of D.C. prisoners held locally and in 
Federal Bureau of Prison facilities on issues around safety, 
health care, access to the courts. We also represent folks in 
parole hearings. So we have a lot of experience directly in 
these facilities where D.C. prisoners are held.
    As described in my written testimony, I will just summarize 
a bit, the Revitalization Act of course transformed the 
District's criminal justice system from an almost exclusively 
local system to a Federalized system. Our entire criminal 
justice system, from prosecution through sentencing through 
incarceration, and then back to parole, supervision and 
revocation, is all Federal. The criminal justice system was 
made this way by a Federal legislature in which D.C. citizens 
of course have no vote, so we have very little control over 
this situation.
    Nonetheless, this is a useful conversation to have. These 
are issues that our organizations have tried to address at all 
levels, with the Vice President's Office, with the Bureau of 
Prisons, with Congresswoman Norton as well.
    As we have mentioned, about 6,100 D.C. prisoners are held 
in at least 98 different Federal prisons spread out from 
California to Florida to Pennsylvania and beyond. As described 
earlier, the Memorandum of Understanding with the Bureau of 
Prisons strives to keep D.C. prisoners within 500 miles of 
home. This actually is consistent with preexisting BOP policy. 
The Federal Government has provided no further accommodation or 
legal commitment for the influx of D.C. prisoners happening 8 
or 9 years ago, only about 3 or 4 percent of the population.
    For 6,000 D.C. prisoners, the 500-mile radius is a 
geographic area that reaches from Indiana and Kentucky on the 
west, Georgia in the south, and upper New York State on the 
north. This is a rather huge distance. So although D.C. 
prisoners represent only 3 percent of the total BOP population, 
the BOP is effectively D.C.'s State prison, as the 
Congresswoman mentioned earlier.
    The entire population of D.C.'s returning citizens have 
endured incarceration in these far flung facilities. The 
District retains no control or influence over which facilities 
will house the prisoners, what programs will be available to 
them, the security levels within the BOP or how far away from 
D.C. they will be held.
    As you've heard, this situation causes serious problems. 
Family separation is the most obvious one. Hundreds of miles, 
thousands of miles away, these prisons are located in rural 
areas requiring a car generally to get to. Because D.C. 
prisoners are dispersed so widely, it is difficult for local 
organizations to set up any kind of bus system or any way for 
people in large numbers to visit at any one time. This is a 
major obstacle.
    Telephone calls are extremely expensive. Collect calls run 
about $15 for a 15-minute collect call. There is debit calling 
also available which reduces that call to about $3.50 to $4 for 
a 15-minute call. However, please note that even a well paid 
prisoner who works perhaps in the UNICORP program will make 
maybe $70 a month. So this is an extremely expensive outlay for 
a prisoner to make.
    In addition to this, as Ms. LaVigne has detailed, I think 
quite accurately, having D.C. prisoners dispersed makes reentry 
extremely complex, not only because it is impossible to 
interview for a job or set up housing from a long distance, but 
also because the case management staff and counselors in these 
facilities have no experience with D.C.
    I am reminded when I visited one facility holding D.C. 
juveniles in the Bureau of Prisons in North Dakota, as 
Congresswoman Norton noted, and the teacher in that facility, I 
asked him what could be a very useful thing for us to give you 
to help these kids. He said, could you send us a Yellow Pages 
from the District of Columbia. Well, that clearly did not 
indicate that he had any real clue as to how someone from that 
facility is going to get a job back in D.C. or had any idea 
what life is like for an urban kid now in North Dakota and then 
returning.
    So I want to make a couple of recommendations and cut this 
a little shorter. My written statement goes into a little bit 
more detail. But I would echo Congresswoman Norton's statement 
to move all D.C. prisoners within, if not one, at least a small 
number of Federal facilities close to D.C. This would have an 
enormous impact on reentry. It would have an impact on family 
ties being maintained. There are facilities in Maryland, 
Virginia and Pennsylvania within 250 miles of D.C. Some 
combination of these could certainly be worked. There are 
medical facilities within a fairly short distance in North 
Carolina. It is certainly possible.
    Similarly, a second recommendation is that in facilities 
housing D.C. prisoners case management staff should be trained 
appropriately. This really cannot effectively happen unless 
they are in one small number of facilities.
    And third is to address the issue of juveniles. There is 
simply no reason for D.C. kids, 9, 10, 11, to be sent to North 
Dakota to serve out their sentences.
    Thank you so much. I look forward to answering your 
questions.
    [The prepared statement of Mr. Fornaci follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Lynch. Thank you, Mr. Fornaci.
    Mr. Cook, you are now recognized for 5 minutes for an 
opening statement.

                    STATEMENT OF ANDREW COOK

    Mr. Cook. I would like to say good afternoon. I am also 
honored to be able to sit before you all today and I thank you 
all for being, you know, giving affording so I can share my 
testimony today. Thank you.
    Mr. Lynch. Mr. Sawyer, you are now recognized for 5 
minutes.

                   STATEMENT OF LOUIS SAWYER

    Mr. Sawyer. Mr. Chairman, Members of Congress and their 
staff, distinguished members of the panel, ladies and 
gentlemen, good afternoon.
    You've mentioned, Mr. Chairman, in introducing me, where I 
was employed with the SOME program, and I need to clarify 
something, that it is not the SOME, So Others May Eat, it is 
the Opportunities Industrialization Center of Washington, DC, 
and I needed to note that for the record because I don't 
believe I can go back to Southeast if I did not.
    Mr. Lynch. OK. That is duly noted.
    Mr. Sawyer. Thank you so much. And I do have a pamphlet for 
you for the Members of Congress. All right.
    I wanted to thank you for this opportunity for sharing with 
those members who are here in reference to the plight of D.C. 
prisoners far away from home. I do not want to be redundant for 
what Mr. Fornaci has said, he has covered most of everything in 
a nutshell. But I would like to talk with the, have the 
opportunity to speak to the recidivism and the reentry of D.C. 
prisoners coming back into the Nation's Capital.
    And one thing I do note that is very serious are five 
essential basic needs that should be looked upon, and those are 
the transportation of a D.C. prisoner, a returning citizen 
coming back to the Nation's Capitol, his medical care, 
psychological, what have you, clothing issues, employment and 
housing. These are very critical issues that need to be 
explored and looked upon for being where we are and how far 
we've been away, such as when I was in the U.S. penitentiary in 
Lee County for 5 years, and then I transferred to the FCI 
Allenwood in White Deer, PA, where I made parole on February 9, 
2010.
    And after spending 25 years in the system, I found that, 
coming back to the Nation's Capital, the opportunities that I 
thought would be available were not. But I do thank the Public 
Defender Services of the Nation's Capital for providing an 
adult directory of resources. And Ms. April Frazier, who is the 
staff attorney and who's responsible for the reentry, was very 
good. And Mr. Allen McAllister, who is staff attorney who's 
here, who's also working and have worked very hard in seeing to 
it.
    But I would recommend that one of these pamphlets, these 
booklets, this directory would be able to be sent to each and 
every one of the institutions in where a D.C. prisoner is 
housed so it could be noted for the law library. With that 
said, this directory is very useful and which I have found it 
when I was there to look into and to send letters to the 
appropriate individuals where they could become housing 
employment, also with the mentoring aspect. And I am also 
pleased to note that the Welcome Home Project with Ms. Joyce 
Boyd, who was very helpful in my reentry.
    But I must say this. This is of utmost importance, that if 
a person does not have a foundation, which is his family, some 
institution, religion, based on a church foundation, a mentor, 
counselors and advisers, then it is not going to work out. But 
he has to understand that it is not easy out here. But it is 
also incumbent upon those to note that with the assistance of 
the reentry faith-based welcome back, these organizations have 
pooled together, and I am very much a product of that. And I 
thank those individuals for being so thoughtful and so helpful.
    But we need to meet those needs wherein, even with the 
transportation issue. We have some organizations that are able 
to give tokens and then those who are not. But to go out, such 
as myself, I am in the Hope Village halfway house at 2840 
Langston Place Southeast, and to go out every day to look for 
employment. But based on the fact that I am in the 
Opportunities Industrialization Center in Southeast Washington, 
DC, which is the place to be, we still have to go out. It is 
from 10 a.m. to 2 p.m., Monday through Friday. And it is a job 
placement training program that facilitates those individuals 
who are looking forward, but they're training them so they're 
just not going out to employment without any skills. They are 
providing that with the Internet, and being able to have those 
opportunities. And I do, I want to note that for the record. 
But still, we're looking at those issues that come before this 
committee.
    Thank you, Mr. Chairman.
    Mr. Lynch. Thank you, sir. I want to thank all the 
witnesses who are coming before the committee to help us with 
our work, and Mr. Cook and Mr. Sawyer especially for offering 
your perspective.
    I am going to yield myself 5 minutes for my questions, 
after which I'll recognize the other Members. It seems there's 
general agreement that the proximity can help a great deal. I 
know, Ms. LaVigne, you pointed out a couple of instances where 
there might be some qualifiers to that with respect to gang 
violence and that type of connection.
    But is it possible, Mr. Lappin, Mr. Fornaci mentioned the 
250-mile, I know you've got this Memorandum of Understanding 
that implies, or it establishes a goal of 500 miles, which is a 
long, long distance. Mr. Fornaci suggests that with some of the 
existing facilities in the Pennsylvania, Virginia, West 
Virginia area, you might be able to reduce that down to 250. 
But I also hear from you and Ms. Poteat about the capacity 
problem, the overcrowding problem that we have. Is that 
feasible?
    Mr. Lappin. Thank you, sir. It is an excellent question. 
And let me begin by agreeing with them that closer to home is 
better, even with those challenges. However, this has been a 
challenge for the Federal system since its creation. Well, I 
want to set the parameters so you have a sense of how the other 
inmates in the Federal prison system compare to the inmates 
from the District of Columbia. And I can break it down by 
gender.
    Right now 75 percent of the inmates from the Superior Court 
are within 500 miles. Male inmates from the Superior Court 
within 500 miles, 75 percent. For all the other inmates in the 
Federal prison system, male, there's 69 percent of them are 500 
miles from home. So a larger percentage than with the District 
inmates are beyond 500 miles.
    Comparing male Superior Court offenders with all other 
Federal offenders, 75 percent of the male Superior Court 
offenders are within 500 miles of home; 69 percent of all other 
male Federal offenders are within 500 miles of home. For 
females, 81 percent are within 500 miles of home. For all other 
females in the Federal system, 69 percent are within 500 miles 
of home.
    And this has been somewhat true over the course of many, 
many years. It is unfortunate that a long, long time ago we 
didn't see the value of inmates being closer to home and before 
we built prisons, we built them in locations that were closer 
to where the inmates were coming from. Unfortunately, that did 
not happen.
    So today our infrastructure, much of it new, are in remote 
rural locations where there are not as many inmates coming from 
those systems. But you can see that the distance issue has been 
a challenge for us for a long, long time.
    To compensate for that, we work closely with U.S. Probation 
Service, our contract providers in the halfway houses, CSOSA 
and others, to try to improve the relationship in advance of 
the inmates returning home.
    To your question, before you can do any of the things you 
want to do in prison, provide programs, provide reentry 
opportunities, teach GED, teach vocational training, have 
inmates working in Prison Industries, you must run safe 
prisons. Inmates must be able to safely come out of their cells 
from 6 a.m., until 9 or 10 p.m., whatever time that is, and 
function within that unit. It has been our experience that 
we've been more successful allowing that to happen when we have 
a balanced designation process, when inmates are balanced both 
geographically, gang-wise, racially, and ethnically. And we 
strive to achieve that balance at our institutions and retain 
that balance.
    But as you indicated, it is even more of a challenge when 
you don't have enough beds because, quite honestly, there are 
some days you are just trying to find an empty bed to put an 
inmate in at the appropriate security level. So I don't think 
it is possible within 250 miles and successfully manage those 
prisons as safely as we do today because it will disrupt this 
balance that we are trying to achieve. And that is unfortunate.
    The other thing is there are several reasons why those that 
are beyond 500 miles, one, medical care. Some inmates require 
more medical care. And let me just mention this very briefly. 
We classify inmates based on security level. Once that is 
accomplished, we classify them on care level, how much medical 
care do we think they're going to require, based on their 
physical condition, because we came to the realization a few 
years ago that we could not provide the same level of care, 
health care at every facility, given the fact that many were 
built in very rural locations or in very urban locations where 
we were competing for limited resources in the way of health 
care providers, one, and two, that there were not a lot of 
facilities outside of that institution, hospitals, that could 
provide that care if in fact we could not provide the care 
inside the facility. So therefore, we created healthy 
institutions and institutions with inmates who were healthy but 
needed some additional care and then our more institutions with 
greater need for health care. That alone sends inmates a little 
further away from home so that we can provide adequate health 
care.
    Separations.
    Mr. Lynch. Mr. Lappin, you have far exceeded--I only have 5 
minutes. You've exhausted all that time. I appreciate your 
answer was no, is that correct?
    Mr. Lappin. I do not believe that we can do it as safely as 
we do today.
    Mr. Lynch. OK. All right. I will now yield to the ranking 
member for 5 minutes, Mr. Chaffetz.
    Mr. Chaffetz. Thank you, Mr. Chairman. I have to go swiftly 
because 5 minutes goes by fast. I do not understand why we have 
102 people from Washington, DC, in Arizona. Understanding that 
the documentation that was here, give me one reason why we 
would send somebody all the way to Arizona, other than it has 
really good weather.
    Mr. Lappin. High security sex offenders. That is the only 
housing you have of a high security nature where we can house 
sex offenders in an open population.
    Mr. Chaffetz. There is nowhere closer than Arizona.
    Mr. Lappin. There is nowhere closer for high security sex 
offenders than Tucson, AZ.
    Mr. Chaffetz. What about 101 people in Colorado?
    Mr. Lappin. As I indicated, inmates that have special 
security needs, there are 44 of them at ADX Florence because 
they have assaulted staff and inmates, they've killed inmates, 
they have attempted to escape. So there is a high security 
facility, ADX Florence. There are 41 alone in that facility 
because of their misconduct in prison.
    Mr. Chaffetz. And let me go to Mr. Fornaci. I saw at least 
from your kind of nonverbal, I thought you took some issue to 
this idea of balance based on medical needs and those types of 
things. Do you care to comment on that based on what Mr. Lynch 
was questioning?
    Mr. Fornaci. Well, yes, thank you.
    I was looking at the listing of where D.C. prisoners are. 
Certainly there is some number of folks in medical facilities 
which is a care Level 4. The care Level 3 there is a smaller 
number. But I am not sure that actually states it. I think the 
security issues I suspect are stronger on Mr. Lappin's basis 
than are the medical issues. There are many medical facilities 
within this area. The care level system is actually relatively 
new.
    I guess what I was raising my eyebrows at is I am a little 
bit, I am not quite sure of how to interpret it, was the notion 
of having certain kinds of balance, including racial balance. 
That was what I was responding to. D.C. folks are known as 
about 95 percent African American prisoners. It is an urbanized 
population. The BOP generally is 38 percent African American.
    Mr. Chaffetz. Thank you. Mr. Cook and Mr. Sawyer, first of 
all, I appreciate you being here. You have been here. You have 
seen it. I think your only vested interest is probably to make 
it better. So maybe starting with Mr. Cook and then Mr. Sawyer, 
from your vantage point, what is, what are the two or three 
things, and if you just have one, you just have one, but that 
you would like to see improved. It is just your own personal 
point of view. It is from what you've witnessed. If you could 
make the situation better, what should we be doing? What should 
we be insisting that the Bureau of Prisons do better?
    Mr. Cook. Meaning as far as, you mean as far as the 
location?
    Mr. Chaffetz. Yeah. Yeah.
    Mr. Cook. Well, from my experience I've been locked up 8 
years. And out of 8 years I've been to five different 
penitentiaries. And out of five different penitentiaries I 
would say, well, with the help of Mr. Fornaci, I've been out in 
Indiana. I am not no security risk so I am wondering why was I 
out there. I don't have no family out there. Then after I leave 
there I go to Kentucky. Same thing apply.
    So I am curious to know what do they, you know, what is the 
information they use to place a person? I am just thinking they 
going sending you to the next bed.
    Mr. Chaffetz. Now he talked about the safety and security 
of these prisons. From the time they opened that cell to the 
time they close it did you feel safe in those penitentiaries?
    Mr. Cook. Well, I am going to say the only thing I was kind 
of worried about was getting back home, closer to home. Other 
stuff don't even matter to me.
    Mr. Chaffetz. How did you communicate? Do you have family 
here then?
    Mr. Cook. Yes.
    Mr. Chaffetz. How did you communicate with them? Were there 
any resources?
    Mr. Cook. Well, being so far a way, your money, you don't 
really have too much money.
    Mr. Chaffetz. Right.
    Mr. Cook. And when you get a job in there, they pay you a 
little less than nothing. So the little money you do obtain 
you've got to stretch it. Either you are going to pay----
    Mr. Chaffetz. Give me an idea. What were you doing and how 
much money were you making?
    Mr. Cook. Well, my first job, I've been a tutor, you know, 
throughout the BOP. That pay a little bit. That is one of the--
--
    Mr. Chaffetz. Like how much in a month? How much in a month 
does that make?
    Mr. Cook. An hour? Like 30 something cent an hour.
    Mr. Chaffetz. 30 cents an hour. And with that you are 
expected to pay for long distance toll calls and all that kind 
of thing to communicate with your family?
    Mr. Cook. Pretty much.
    Mr. Chaffetz. Was your family ever able to come out and 
visit you?
    Mr. Cook. No good.
    Mr. Chaffetz. Mr. Sawyer, Ill give you an opportunity.
    Mr. Sawyer. Thank you so much. Your question again, sir?
    Mr. Chaffetz. If you had two or three, maybe one or two 
things that you just want the Bureau of Prisons to do to 
improve the system for people that are so far away, what would 
that be? Be very specific and as brief as you can on what you'd 
like them to do.
    Mr. Sawyer. Well, I am very much concerned about Mr. 
Lappin, who spoke to the issue about when the individuals come 
out of their prison cells.
    I have been in--for 25 years, and I have yet to see--
because I have been in the medium-security facility, and even 
at the U.S. penitentiary in Lee County, when you understand 
that you are in a prison setting and when you fear no one but 
God, and God alone, then that tends to give you a more secure 
balance in where you are and who you are.
    But, of course, we understand it is a prison and it is a 
U.S. penitentiary and it is prison. But still, for the Bureau 
of Prisons to look at it, in bringing the District of Columbia 
inmates closer, the States of Pennsylvania, Virginia, Maryland, 
it should be looked upon as a serious entity wherein the 
closeness--I don't believe we are a security factor. For those 
who went in 25, 30 years ago, who are now coming home, they are 
looking forward to being with their families. It is a telephone 
issue. It is a visitation issue. And it is very expensive.
    They travel all night to get to the facility, and when they 
come, they are not welcome because, for whatever reason, the 
Federal Bureau of Prisons staff are not too likened to D.C. 
prisoners and their families. And, to be honest with you, and I 
will share that with you because no one wants to speak about 
that, but that is an issue. That is an issue.
    Mr. Chaffetz. Thank you both. I wish you nothing but the 
best, and I appreciate your taking time to be here.
    Thanks for the latitude in time, Madam Chair. And I think 
it is just a crying shame that these people have to be so far 
away. They are dealing with an exceptionally difficult 
situation, to say the very least for them and their families, 
and there is something we got to do, because this ain't right.
    Ms. Norton. I thank you very much, Mr. Chaffetz, for your 
questions because I think they have elicited the dilemma that 
we have before us, and, I must say, a dilemma that I think is 
quite solvable.
    As you probe the witnesses who have been transferred from 
one prison to another--and, for that matter, Mr. Lappin, I want 
to thank the Bureau of Prisons for quickly admitting D.C. 
residents to the state-of-the-art drug program. We recognize 
there are always backlogs, but the notion that our prisoners 
were not even admitted, that was not your fault, but you 
certainly got that done. You have set up a drug program, a 
state-of-the-art program, also at Rivers. We are very grateful 
for that.
    The answers to the questions posed by the chairman and the 
ranking member, of course, have elicited from Mr. Lappin, you 
know, what you would expect. He is talking about the Federal 
prison system as it is, as if Congress in the Revitalization 
Act hadn't given him a new charge. They didn't say, ``Here is a 
Federal prison. See what you can do with these State 
prisoners.'' The charge was to do something unprecedented, take 
State prisoners and deal with them as State prisoners within a 
Federal prison system. And you know that was the case because 
they are under the D.C. Code still. They are recognizable D.C. 
prisoners.
    So we are working with 500 miles. You have heard testimony 
here, I think it was from Ms. LaVigne, you know, 100 miles is 
what you find in the average State. Already they are at a 
severe disadvantage. And we in the District are supposed to 
say, ``Welcome home, friends,'' at the end of--it could be 25 
years, it could be 10 years, it could be a few years. No matter 
what it is, almost none of them have access to family services.
    So we are not asking for a change in the Federal system. We 
are asking for the Federal system to do what the Revitalization 
Act said: Take these State prisoners, treat them as State 
prisoners within a Federal system, do not disadvantage them, 
give them the advantages that come from your system, not 
disadvantages imposed on them.
    Now, the fact is, Mr. Lappin, we have some reason to 
believe that your office may already be thinking in these 
terms. Has your office been in touch with the D.C. Department 
of Corrections about bringing D.C. Code offenders home early, 
90 days, and putting them in the D.C. correctional treatment 
facility here in the District of Columbia?
    Mr. Lappin. Yes, we have had a discussion over the phone.
    Ms. Norton. With whom have those discussions taken place?
    Mr. Lappin. Director Brown.
    Ms. Norton. Is Director Brown here?
    Mr. Brown. Yes, ma'am.
    Ms. Norton. Rather than deal in hearsay, could I ask that 
Mr. Brown take the table? I don't want you to have to quote Mr. 
Brown. Would somebody, staff, bring a chair up so that Mr. 
Brown can take his seat here since he is here? This is somebody 
close to home who has already had discussions. This is a 
problem-solving hearing, and we want to solve this problem, 
beginning now.
    Could you please stand and be sworn?
    [Witness sworn.]
    Ms. Norton. Now, you have testified in your written 
testimony, on page 5, to the advantages--you are right, we 
tried to get closer to home; we even tried to reserve some part 
of the Lorton facility for this very purpose. You talk about 
the advantages for the D.C. Superior Court and closeness to 
CSOSA. You spell that out, I think, very well. You say you have 
had discussions with Director Devon Brown of the D.C. 
Department of Corrections.
    Would you, Mr. Brown, say firsthand what those discussions 
have concerned?
    Mr. Brown. Yes. Director Lappin is correct. I contacted him 
approximately 3 weeks ago to discuss several proposals, all 
impacting upon D.C. inmates.
    One of those proposals entailed having D.C. inmates who are 
in his custody, 90 days from their release, be placed in one of 
my facilities, whereby we could provide them--that is, the city 
and CSOSA--wraparound services to help in their transition back 
into our community.
    Ms. Norton. Now, you are willing to take these prisoners.
    Mr. Lappin, I want you to consider that when we hear 
testimony here, we understand the constraints of the Federal 
prison system. But I need to ask you whether you are prepared 
to accept this offer of the D.C. Department of Corrections with 
the director here testifying today?
    Mr. Lappin. I am not willing to accept that as of yet. We 
are going to meet. Because I think there is another group that 
needs to be discussed in advance of that.
    Ms. Norton. Another group of what?
    Mr. Lappin. D.C. offenders who are serving short sentences.
    Because of the crowdedness at the jail previously, we have 
been designating inmates who are serving over 30 days to a 
Federal prison. And I shared with the director that we should 
first look at this group, because in most jurisdictions, when 
individuals are serving 6 months or less, we oftentimes 
designate them to the jail in lieu of transferring them to 
Federal prison, because when we do that, by the time they get 
to the Federal prison, it is time to return to their home.
    Ms. Norton. Well, Director Brown, did you take this notion, 
which is not new to this subcommittee, into consideration, this 
notion about people who have violated parole?
    Mr. Lappin. Actually, they are serving a sentence of 6 
months or less.
    Ms. Norton. But they are felons.
    Mr. Lappin. They are felons.
    Mr. Brown. Yes, ma'am. The discussion really began over 
weekenders, which is very similar. I could not see, nor could 
the Federal judges here see, the utility of having someone who 
has been sentenced to several weekends have their lives 
disrupted by having to travel to one of the Federal 
penitentiaries.
    Ms. Norton. So what happens now to the weekenders or these 
short-termers?
    Mr. Lappin. We have had very few of them. But when we do 
have them, we try to find a jail in close proximity to house 
them. So, out of Baltimore, there is a jail about 2 hours away. 
We are in agreement with the director on that issue and the 
other issue.
    The one I am hesitating on is returning these longer-term 
offenders, 90 days before they are released, back to the 
District until we have a chance to look at how many that would 
be, so that he doesn't accept more than he can actually handle 
at the jail; how much it will cost to transfer them from the 
Federal prison back to the jail and then to house them.
    Ms. Norton. We know this: that you are paying to keep them 
in the Federal prisons right now. We know that you testified at 
length about how overcrowded your prisons are. We know he has 
available beds. And the challenge is not, of course, to tell us 
what can't be done, but to adopt the same problem-solving 
attitude that we are trying to adopt in this hearing.
    If there is such an outstanding offer--this is what I ask: 
for you and Director Brown, within 30 days, to report on 
progress for the weekenders. You can throw anybody in there you 
want to, Mr. Lappin, but also for prisoners who would be 
returning to D.C., not excluding them, but including them.
    Considering that there are a number of beds, it will be 
very hard, Mr. Lappin, for you to show me, since you have to 
pay for these people to come back home anyway, you have to 
house them anyway, it will be very hard for you to show me in 
your overcrowded condition, as you have testified here today, 
that you have a greater burden by keeping these prisoners in 
115 prisons across the United States than accepting Mr. Brown's 
offer.
    Mr. Davis was the next to arrive. And I am very pleased 
that Mr. Davis is attending this hearing because he is the 
author of a landmark bill on reentry for inmates throughout the 
United States.
    Yes, sir?
    Mr. Davis. Thank you very much, Madam Chairman.
    And let me thank the witnesses for being here.
    Director Lappin, it is good to see you again.
    You indicated that sex offenders under your care, you had 
to take them 500 miles away to Arizona to find a Bureau of 
Prisons facility where they be could housed?
    Mr. Lappin. Not all sex offenders. High-security sex 
offenders.
    Mr. Davis. High-security sex offenders. What about sex 
offenders who are not necessarily as high security?
    Mr. Lappin. After the passage of the Adam Walsh Act, the 
Congress in the new law required us to create six sex offender 
management programs. We have done that. There is one in 
Petersburg, VA. There is one in Marianna, FL. There is one in 
each of our regions. The closest one for high-security sex 
offenders is Tucson.
    You can't imagine how difficult it is to house high-
security sex offenders in an open population. Prior to this, 
many of them were housed in segregation because they were 
unwilling to go to the compound. So we had to find a location 
where we could introduce this with an entirely new group of 
inmates, and that was to do it at a brand-new facility. The 
only high-security institution opening during that time was the 
one in Tucson. That is where we chose to place this high-
security sex offender program.
    Mr. Davis. Let me ask, what happens to these individuals 
once they have completed their sentences, once they have served 
their time, and it is time for them to return back home?
    Mr. Lappin. Are you asking me?
    Mr. Davis. Well, no, I----
    Ms. Poteat. They would be under CSOSA's supervision. We 
develop a plan for each individual, depending on risk and 
needs. The sex offenders are housed and are supervised in a 
specialized unit under CSOSA. And those units are at 300 
Indiana Avenue.
    And we have programs in place to supervise them 
accordingly. They are lower caseloads. We institute GPS, if 
necessary. We place them in therapeutic groups. And the 
caseload ratio, as I indicated, is much smaller in dealing with 
that population.
    The jobs are looked at a little differently, because we 
have to make sure that where they are working are conducive and 
they are not posing a risk. And their housing needs are also 
scrutinized. If, in fact, they have separations against 
children, then we do not place them in homes or jobs where 
children are present.
    Mr. Davis. And I ask these questions basically because it 
is my experience that sex offenders basically give up their 
freedom once they are convicted of a sex crime. I mean, my 
experiences are that trying to find a place for sex offenders 
to live is almost impossible because, obviously, there is no 
community, there is no location, there is no place where they 
are pretty much acceptable to the rest of society.
    And I raise that point because I often talk to young people 
and I actually caution them quite a bit that, you know, if you 
reach that point, for all practical purposes, you are 
sentencing yourself to a lifetime of prison or a lack of 
freedom relative to movement.
    The other point I would like to make, Madam Chairman: Mr. 
Cook, are you employed? Do you have a job?
    Mr. Cook. No, I don't.
    Mr. Davis. Have you tried to find a job?
    Mr. Cook. Several times.
    Mr. Davis. And you have been unsuccessful. You would 
attribute that to what?
    Mr. Cook. I would contribute that to the lapse, when I fill 
out my resume, the lapse in times of my current job to my, you 
know, the last job I had to now, and the resources.
    Mr. Davis. Would you be a good worker?
    Mr. Cook. Yes.
    Mr. Davis. Thank you, Madam Chairman. Are you going to do 
another round?
    Ms. Norton. We will do another round, yes, sir.
    Mr. Cummings of Maryland?
    Mr. Cummings. Thank you very much, Madam Chair.
    Mr. Lappin, help me with this. In your testimony, you say 
that, you know, the Bureau of Prisons is establishing 
employment resource centers at all Federal prisons to assist 
inmates with job searches and other areas.
    Are those resources focused on local and the statewide 
level? How do you do that?
    Mr. Lappin. They are really national, given the fact that 
in that institution you have inmates not only from all over the 
United States, you have inmates from all over the world.
    Mr. Cummings. Right. OK.
    Mr. Lappin. And so we focus on those U.S. citizens who 
return to this country with a national approach to how you go 
about finding a job: resume building, job searches. We actually 
are working with companies that provide software as to what 
jobs are vacant in certain areas that inmates can actually 
access and see what jobs are vacant in a given area, what types 
of jobs are available in a given area. So there are resources 
made available to them, based on their release, to assist them 
in preparing for a job search.
    And then, as they transition to a halfway house or a 
residential re-entry center, we have work force development 
staff at those centers who assist them once they arrive at that 
location, given the fact that the majority of the inmates do 
transition out through a halfway house.
    Mr. Cummings. And what have the results been? I mean, do 
you followup to see how many inmates have gotten jobs, say, 
within 6 months of being released?
    Mr. Lappin. We really, sir, we don't track that. Once they 
leave the halfway house, they become the responsibility of the 
U.S. Probation Service. And right now we don't have the 
wherewithal through technology as of yet to determine how many 
of them actually get jobs prior to release. So all we can do is 
rely on the surveys we might do with halfway houses on a case-
by-case basis.
    Mr. Cummings. Uh-huh. It seems to me that you would want 
to--I mean, if you have a program, you want to measure it some 
kind of way. That doesn't seem like it would take rocket 
scientist stuff. Maybe I am missing something.
    Mr. Lappin. No, we agree with you. And we are working----
    Mr. Cummings. Whoa, whoa, whoa. If you can send somebody 
500 miles away, it seems like you ought to be able to figure 
out whether they got a job. I am just curious.
    Mr. Lappin. No, we agree with you. And we have now put in 
place a system that is electronic in nature that we are going 
to be able to gather that information more consistently across 
the United States in the very near future. Right now we don't 
have the technology in place. It would have to be done by hand.
    Mr. Cummings. The reason why I ask that, Mr. Brown knows me 
well; we go way back. And he knows that I used to do a program 
in Baltimore, an aftercare program, where we actually worked 
with the inmates after they got out. And one of the most 
difficult things has always been, and it continues to be, is 
jobs.
    And is it Mr. Cook?
    Mr. Cook. Yes.
    Mr. Cummings. Mr. Cook, your problem is not only the fact 
that you have a record. The problem, also--and I know this 
because I live in the inner city, and I just did a jobs fair--
part of the problem is that, right now, there are a lot of 
people looking for jobs who have no records. And that is real. 
And so that competition is kind of rough.
    But I am trying to figure out--I am just trying to make 
sure that if we are doing things--we have a fellow--first of 
all, what is the significance of the 500 miles? Because 500 
miles, I was just doing a little math here, you know, that is a 
long drive.
    Mr. Lappin. It is based on traditional distance from home 
for Federal offenders.
    Mr. Cummings. OK.
    Mr. Lappin. And for years that has been the target, is to 
try to get them within 500 miles. And, again, realize, there 
are 115 prisons, but many of them are concentrated in just a 
few States.
    Mr. Cummings. Right.
    Mr. Lappin. So if you go to West Virginia, for example, you 
have seven or eight prisons there. If you go to Kentucky, there 
are seven or eight prisons there. Believe you me, there are not 
enough inmates coming out of Kentucky and West Virginia to fill 
one prison, let alone 14 or 15. But you are going to fill those 
beds.
    And so, the 500 miles is driven by our experience over the 
last few decades and how far the average inmate is from home.
    Mr. Cummings. And the only reason I was asking about the 
job piece is because one of the things that we discovered in 
our program is that, if we could get somebody a job, they had a 
much better chance of staying on the street, much better. And 
then getting them back with their family and trying to redirect 
their priorities from the street to the family and a job. 
Because one of the things a job also does is it provides them 
another family, really.
    Mr. Lappin. Well, we agree with you, and that is why the 
halfway house is critically important. And a job and a place to 
live are the two most important factors. Our research 
reflects--in a broader scale, not did they get a job, but our 
research reflects those inmates who transfer out through a 
halfway house are far more successful at getting a job and 
retaining a job and less likely to come back to prison.
    So in that assessment is the understanding that getting a 
job and a place to live are the two most important aspects of 
that release. And, certainly, that halfway house transition 
helps us be more successful in that regard.
    Mr. Cummings. I see my time is up. Thanks.
    Ms. Norton. Thank you, Mr. Cummings.
    You can see the Members are very skeptical about this 500 
miles. Nobody buys it as in any way facilitating re-entry. So 
then we have to think outside the box, Mr. Lappin. That is why, 
since we had this information, it seems to me that should have 
been in your testimony, if I can be candid, that you were at 
least looking at that. And we got that information simply 
because we are in the District.
    And, therefore, it is that kind of thinking outside the 
box, or else we are going to be sitting here trying to thread a 
needle that does not thread. We are not asking you to change 
the whole system. We are asking you to accommodate a State 
system, as the Revitalization Act has mandated.
    Now, there is nothing that will keep you, is there, from 
designating a prison, let's say, within 200 miles or whatever 
distance would be closer to home, now with various kinds of 
inmates as a D.C. prison? There is nothing that would keep you 
from doing that, is there? And, in fact, locating D.C. 
residents in that particular existing FBOP facility.
    I am not asking you to do it. I am asking you if there is 
anything that you know of that would keep you from doing it----
    Mr. Lappin. Yes, there is.
    Ms. Norton [continuing]. Given the Revitalization Act and 
the challenge you face and the testimony you have heard here 
today.
    Mr. Lappin. Congresswoman, you and I have had this 
discussion before.
    Ms. Norton. I have never had this discussion with you at 
any length, sir. And I want to have it right now, under oath, 
right here. Is there anything that keeps you from designating a 
prison within a few hundred miles of D.C. for D.C. inmates at 
this time? And if there is, I want to know what it is.
    Mr. Lappin. If you go back to my oral statement or my 
written testimony, I explain why I believe it is unwise for us 
to designate a specific location for one type of inmate. 
Because we have been more successful in operating prisons 
safely when we have a balanced inmate population.
    Ms. Norton. You are back in the box again. And I am trying 
to get you outside of the box dealing with the testimony you 
have heard here about the failures of the BOP because you deal 
with these prisoners as a part of a Federal complex instead of 
as a new set of prisoners charged with you. I understand that.
    You say, you know, in your discretion, it wouldn't be wise. 
Obviously, there are ways to have a facility which, in state-
of-the-art penology, has inmates at various levels. Done all 
the time in the States. But, of course, what it would take, Mr. 
Lappin, is the will to do it. And if the will to do it needs to 
come by Federal statute, that is a lot of will by the will of 
law. But guess what? I don't think it is necessary. That is why 
I asked you if there was anything in law that kept it from 
happening. You said what your own view is. I would like to have 
those discussions with you.
    Now, I would like to ask a question, really based on Mr. 
Fornaci's testimony. But, Mr. Fornaci, you do say something 
that makes me want to followup here unrelated to the question I 
was to ask. You say the BOP even pays the District to house 
these prisoners in D.C. jail facilities after they are 
sentenced and while they await designation and transportation 
to a BOP facility.
    Director Brown, is that the case? Is the BOP paying the 
District to house sentenced felons while they await designation 
and transportation to a BOP facility?
    Mr. Brown. No, ma'am. No, ma'am.
    Ms. Norton. Who pays for these people, who are sentenced 
felons in the care of the District of Columbia? Who pays for 
it?
    Mr. Brown. The District of Columbia pays.
    Ms. Norton. Has the District of Columbia ever been paid at 
all to house any of these felons in District of Columbia care, 
so far as you know?
    Mr. Brown. Ma'am, the point in which the District of 
Columbia receives payment from the Federal Government is upon 
their designation to a Federal Bureau of Prison facility. All 
time prior to that, the cost is borne by the District of 
Columbia.
    Ms. Norton. You mean once they are sentenced?
    Mr. Brown. No, ma'am. Even after the sentencing, the 
District of Columbia continues to absorb the cost of payment 
for the housing of individuals, felons, who have been sentenced 
as felons up until the point in which they are designated to a 
Federal Bureau of Prisons facility.
    Ms. Norton. Is that the case, Mr. Lappin, in States other 
than the District of Columbia?
    Mr. Lappin. That is the practice, that up until the point 
the inmate is designated--so if they are in the jail and they 
have been sentenced, on the day they are designated to a 
Federal prison, we begin paying the next day. And that is 
typical of all the other locations.
    Ms. Norton. So, Mr. Fornaci, the date of the payment, then, 
becomes an issue. I just wanted to clear that up.
    Mr. Fornaci gave really heartbreaking testimony about these 
children. Yes, they are felons who are as far away from home as 
you can be, with a teacher with no information about home. And 
The Washington Post sent a reporter out there a couple of years 
ago just so that the District would have some sense of what it 
meant to have a child so far from home. We don't have any issue 
with people in North Dakota trying to deal with a few kids from 
D.C.
    But could I ask, Mr. Brown, if you have had any discussions 
with the Bureau of Prisons about taking these few kids--it must 
be maybe 10 or 12 kids, if that many--and housing them here in 
the District of Columbia? Have you had such discussions? If you 
have not had such discussions, would you be willing to have 
such discussions with the Bureau of Prisons?
    Mr. Brown. I have had several discussions with the Bureau 
of Prisons, including a brief discussion with Director Lappin 
prior to this hearing.
    Ms. Norton. Could you tell us about that discussion?
    Mr. Brown. Yes. I was approached approximately 2 years ago 
by a Federal Bureau of Prisons official inquiring about the 
possibility of the District continuing to house juveniles who 
had been designated to the Federal Bureau of Prisons, to 
continue to house them at our special juvenile unit at the 
correctional treatment facility until such time as they reached 
the age of majority.
    Ms. Norton. Now, Mr. Lappin, I appreciate that is an idea 
you have had for some time. I have to ask you, why hasn't that 
idea been acted upon?
    Mr. Lappin. Well, as I understand, the juvenile facility 
here didn't have the room at the time we met with them. Also, 
some concern over the seriousness of the offense behavior of 
some of these juveniles at that facility.
    So you are right, the number here is small. In fact, right 
now we have four. And we would much prefer to have them much 
closer to Washington, DC, if not in Washington, DC, I am open 
to any suggestions. We have been to the State of Pennsylvania, 
Virginia, West Virginia, the District, and, as of yet, no one 
is willing--some of them have pretty good programs, but no one 
is willing to offer up beds.
    Ms. Norton. And here we have, right at home, an offer of 
perhaps beds.
    Mr. Brown, could I ask you, given the fact that these are 
not likely kids who are out at our new facility here, these are 
convicted felons, convicted as juveniles, but they are pretty 
serious crimes, four of them, do you think that you have a 
facility somewhere here in the District of Columbia that could 
take these four kids home at this time?
    Mr. Brown. We would handle it the same way as what we 
proposed to do with the adults.
    What I am referring to is those juveniles who are awaiting 
transfer, they have been convicted, they are awaiting 
designation, that we continue to house them here in the 
District at our juvenile unit until such time as they reach 18 
years of age and they can be placed in an adult Bureau of 
Prisons facility.
    Ms. Norton. All right. Now, this is very important. You 
house them while they are awaiting transfer anyway. I mean, you 
house them until they are transferred to North Dakota or 
wherever they are going to be sent. Is that not the case?
    Mr. Brown. That is the case, ma'am.
    Ms. Norton. As with other convicted felons here in the 
District of Columbia. So all you are saying is, since you have 
them anyway, since you have already had to keep them separate 
in a facility based on, among other things, the seriousness of 
the crime, why ship them to North Dakota in the first place? Is 
that the testimony?
    Mr. Lappin. In the past, there has been an issue of space.
    Ms. Norton. Well, you know what? Past is past, and I don't 
want to take time----
    Mr. Lappin. But one other----
    Ms. Norton. I am asking--I can understand, and I am not 
blaming anybody for anything. I am trying to solve a problem, 
Mr. Lappin.
    Mr. Lappin. The other issue has been the availability of 
programs for people who may be in the jail for 2 or 3 years.
    Ms. Norton. Excuse me?
    Mr. Lappin. The availability of programs for those 
juveniles.
    Ms. Norton. Are you kidding? Did you hear Mr. Fornaci say 
that the teacher had to ask for the Yellow Pages just to find 
out which way was up?
    Mr. Fornaci, would you elaborate at what you found at North 
Dakota?
    Mr. Fornaci. Well, I have to say, what I was referring to 
was actually reentry. The program in North Dakota, in fact, 
does have educational services. I think that is what Mr. Lappin 
is referring to.
    Ms. Norton. So you are worried, then, Mr. Lappin, whether 
or not D.C. has the proper education facilities?
    Mr. Lappin. I don't know what they have available. My only 
concern is that sometimes these could be 2-year stays, and I 
think we just need to make sure----
    Ms. Norton. Well, these children could be sentenced at, 
what, 16? What is the youngest age, 16?
    Mr. Lappin. I am not sure. I think it is 15.
    Ms. Norton. Fifteen. It could be 2 years, it could be 3 
years.
    Mr. Lappin. Right.
    Ms. Norton. And that is not at issue here, Mr. Lappin. I am 
trying to find out what can be done.
    Mr. Brown, what is your response about whether or not there 
are the facilities, whether or not, you know, you have them 
anyway, so I assume that you are not letting them sit there 
anyway doing nothing.
    So I am not even sure what Mr. Lappin is talking about. You 
are already providing for these children until they go all the 
way to North Dakota. What more would have to be done to provide 
for these children if you didn't send them to North Dakota in 
the first place?
    Mr. Brown. Ma'am, I would say this: that the D.C. 
Department of Corrections, for the last 4 years, has been the 
best-kept secret, not only in the District of Columbia but 
nationally, in terms of the stellar programming, absolutely 
stellar programming, that has been brought to our jurisdiction, 
particularly as it relates to the juveniles. I invite anyone at 
any time to tour our facility and compare it with any other.
    One of the more critical elements that we provide for our 
juveniles, for the District of Columbia juveniles, is 
education, particularly for special education inmates. There is 
something, as you well know, called an IEP, an individual 
educational plan. It is a legally binding contract between the 
student, his or her parents, and the provider of education.
    Ms. Norton. You have an IEP.
    Mr. Brown. And we absolutely have it. When they go to South 
Dakota or North Dakota, that IEP does not follow them, whereas, 
if they stayed in the District, we would be in adherence to 
that special educational mandate.
    Ms. Norton. Now, Mr. Lappin, I respect the fact that the 
Bureau of Prisons has state-of-the-art programs. I have 
witnessed them, and I have always spoken well of them. So I 
would certainly welcome your coming to the District to observe 
Mr. Brown's program to see if it meets your standards.
    But assuming that it does, would you be amenable to having 
these kids, four or five, now incarcerated in North Dakota 
remain in the District of Columbia, complete with their IEPs, 
individual education plans, that it provides closeness to 
parents, preparation if they are about to go over to BOP? Would 
you be amenable to working with Mr. Brown to see that might 
happen in the District of Columbia for these kids?
    Mr. Lappin. Yes.
    Ms. Norton. Thank you very much, Mr. Lappin.
    I am going to go now to my friend from Illinois, Mr. Davis.
    Mr. Davis. Thank you very much, Madam Chairman.
    Mr. Sawyer, let me ask you, how long have you been out or 
free of any obligation to the Federal Bureau of Prisons?
    Mr. Sawyer. Well, Mr. Davis, I returned home on February 9, 
2010, paroled to the Nation's Capital.
    Mr. Davis. So you just got home?
    Mr. Sawyer. Yes, sir.
    Mr. Davis. Have you found a job yet?
    Mr. Sawyer. Well, no, I have not yet found employment. I 
have not found that. But I am in the Opportunity 
Industrialization Center [OIC], which is a job-training 
organization in southeast Washington that are preparing me for 
those job sites and what have you.
    Mr. Davis. What would you consider to be, when you talk 
about re-entry, your greatest need? What will help you feel the 
most like you have re-entered society, you are back in the 
mainstream, you are a regular citizen with the same hopes and 
aspirations and possibilities as any other citizen?
    Mr. Sawyer. Well, Mr. Davis, one key point would be the 
stigma of not being looked at as an ex-felon. If that could be 
taken away, that would be fantastic. And, also, the situation 
with employment and housing.
    Mr. Davis. And how does one not be looked at as an ex-
felon? I mean, if I met you walking down the street, I 
certainly wouldn't have any indication that you were an ex-
felon.
    Mr. Sawyer. This is true. One thing in particular would be 
the concept of the halfway house in which I am located 
presently, in Hope Village. And when you go out for jobs and 
searching, they have a vocational counselor who calls in to 
verify, and they will state that they are from Hope Village. 
And even though on the resume or application it states, my 
position is don't ask, don't tell. And if the employer does not 
ask the question, then I don't share that with them. But if 
they do, I have no problems with sharing that. But the staff 
tends to share that information with the employers.
    Mr. Davis. Oh, so you are actually in a program, which 
means that you are doing OK because you are on your way. I 
mean, you are in a program, people are working with you, they 
are helping you, you are learning things, you are learning 
where to go, how to go, what to do. So, you are on your way. 
You will be all right.
    Mr. Sawyer. Well, when you say ``all right,'' that is a 
very interesting way of putting it. But the OIC is the basics 
in which they are providing job training. And one thing I do 
know, there are two words that I use, it is ``initiative'' and 
being ``persistent.'' And every day I get up and make it my 
business to go out and to be a part of the OIC operation from 8 
a.m. to 4 p.m., and that is Monday through Friday. But if one 
does not take it upon themselves to take the initiative, then 
if you want to be dormant--nothing is going to come to a 
sleeper but a dream.
    Mr. Davis. Well, thank you.
    Ms. LaVigne, let me ask you--of course, the Urban Institute 
has been involved with this issue for a long time, a number of 
years, and is recognized as one of the real experts in the 
country relative to it.
    We are making little bits and pieces of progress, I think. 
But what would you consider to be, say, the two major areas 
where we are not making or have not made the kind of progress 
that we need to?
    Ms. LaVigne. There are so many things we could still be 
doing, it is hard to choose just two.
    I do see that, as much as departments of corrections across 
the country are really embracing their role as more than just 
housing people safely and securely but also preparing them for 
release so they don't ultimately return, they are still having 
challenges connecting people to re-entry resources on the 
outside. They do what they can with people behind bars, but 
they are very challenged in making those connections to the 
community.
    In large part, and as I said in my formal testimony, the 
prisons are located in places that are far away from where the 
majority of prisoners end up residing. And that is even more of 
a stark contrast when we are talking about D.C. felons. So I 
think that is a big challenge, is making those connections with 
community service providers.
    The other challenge I see is that a lot of people have 
jumped on the re-entry bandwagon, and that is great, and they 
talk about doing evidence-based practice because they have 
heard that is the thing they are supposed to be doing, but they 
don't really know what that means.
    And so they have a lot of resources that they spread very 
thinly across the inmate population in preparing them for 
release, rather than taking a step back and trying to 
understand better what their needs are, what their risks are, 
and what their assets are, so that they can more tailor re-
entry services to individual needs and challenges.
    Mr. Davis. Thank you very much.
    And thank you, Madam Chairman. You know, you could talk 
about this all week.
    Ms. Norton. And I must say, Mr. Davis, you have done a 
whole lot more than talk about it for prisoners nationally. And 
we so appreciate your questions.
    Ms. Poteat, first let me say, I understand the hardship 
that CSOSA is under. You technically have jurisdiction for 
these more than 5,000 inmates spread across the United States. 
And you are able to reach very few of them until they land in 
your lap, so to speak.
    You mentioned the--and there are many different kinds of 
innovations--and I say this to Mr. Lappin. They had to figure 
out what to do, too. CSOSA not only had to create itself, 
invent itself from scratch, but then had to figure out how to 
do what it could to serve as many of these inmates as possible. 
And one of the things they came up with was video mentoring. 
And there has been some videoconferencing generally. But that 
is the kind of innovation we are looking for, the kind of sense 
of innovation we are looking for.
    If these people are so far from home, then if we simply 
speak the jargon of the Federal prisons, we show no intention 
to modify and serve the people of the District of Columbia. And 
if you send us back people who recommit crimes, we are going to 
hold the Bureau of Prisons responsible. We are trying to assist 
the Bureau in its mission. And its mission is not only to house 
these inmates; it is to make sure that they successfully re-
enter and do not disturb the peace in the District of Columbia.
    And we are not convinced that simply treating them as part 
of the vast array of the Federal prison system demography, that 
you can do that if you only think in those terms. You have 
shown that you are willing to think otherwise, and the answers 
when Mr. Brown sat down and you disclosed and he disclosed the 
conversations you are already having.
    I will have less frustration at this hearing if we begin to 
think in those terms. Because as long as you thrust before us 
what you have, you are not showing the problem-solving notions 
that we think hearings are for. Hearings are to solve problems. 
We don't bring you here to say ``gotcha.'' I think your prison 
system is an extraordinary prison system. I just don't think 
that if you continue to treat our folks as if they were like 
Federal prisons, you are doing the best you are capable of 
doing for them.
    Well, here comes CSOSA to say, ``OK, let's try video 
mentoring.'' Well, first of all, how many prisons have you done 
video mentoring in, BOP facilities?
    Ms. Poteat. We are doing it at Rivers Correctional 
Facility, and we are getting ready to extend it to Hazelton.
    Ms. Norton. Let me ask Mr. Lappin. And I don't expect you--
I know you are talking about facilities all over the country. 
But suppose CSOSA was able to do video mentoring with prisons 
outside of this one that is at least 4 hours from the District. 
I don't have to tell you, going 4 hours coming and 4 hours 
back, I don't know why anybody ever--how anybody from D.C. ever 
gets to Rivers, much less to other prisons.
    But would there be anything to keep video mentoring from 
occurring in other Federal prisons where there are D.C. 
inmates?
    Mr. Lappin. We are more than willing to look at new 
technology that would facilitate the visits.
    Ms. Norton. Thank you very much. That is all I needed to 
know, if you are willing to look at it.
    And, Ms. LaVigne, in the States, in your experience, are 
rehabilitation and re-entry services provided more or less for 
the duration of the prisoners' incarceration?
    Ms. LaVigne. It varies quite a bit by State and even by 
facility within each State. So it is hard to make a blanket 
statement.
    Ms. Norton. Well, if I am in the State of Maryland.
    Ms. LaVigne. Well, I am glad you mentioned that because I 
wanted to share with you: Even before I knew about the 
conversation that Director Brown had had with Mr. Lappin, I was 
sitting here thinking, you know, a compromise might be to do 
what the State of Maryland does, which is something like, 
between 6 and 12 months of a person's release date, people are 
transferred to the Maryland Pre-Release Center in Baltimore to 
be closer to their homes and jobs and services in their 
community.
    So there is a really good example out there of a way in 
which this could work. And, you know----
    Ms. Norton. Something like what Mr. Brown was speaking 
about when he testified, along with the conversation with Mr. 
Lappin.
    Ms. LaVigne. Exactly. So there are examples of that out 
there.
    Ms. Norton. Mr. Brown.
    Mr. Brown. The State of Maryland has been doing that for at 
least 10 years. I was involved in it, as the Congressman 
indicated. I know it works. The way the model works is very 
similar to what I am proposing, and that is individuals from 
Baltimore, who are placed throughout the Maryland system, when 
they are about 120 days out from their release, they are 
transitioned--and that is what it is called, a transition 
center--back to Baltimore, their home, that is where they 
reside, to receive wraparound services, from parole and 
probation, from the community, from the churches--the very 
model that I am asking.
    And I am very pleased--I want to make it clear that 
Director Lappin has been open in his discussions with me. He 
has indicated quite correctly, as any director would, that we 
have to talk in terms of logistics, just what would this 
involve. And we are at the early stages of the discussion. He 
has not rejected, in any sense, being willing to explore.
    Ms. Norton. We are here only testing feasibility. I very 
much appreciate your reference to Maryland.
    After discussing this innovation, Ms. Poteat, you say you 
suspended video mentoring in 2007, the demand for mentors, 
because you were doing community-based mentoring. And then you 
say that substantially increased demand for mentors and quickly 
exhausted the available pool. You are now going back to video 
mentoring?
    Ms. Poteat. Yes. We had about 200-and-some mentor and 
mentee matches in about 85 institutions. Well, you know, after 
a while, the mentor pool exhausts itself. And so the Community 
Justice Program--in fact, Jasper Ormond, who is here, is 
constantly continuing, trying to recruit more mentors and 
institutions so that we will have more to engage in this 
process.
    Ms. Norton. It does seem to me, with the discussions that 
Mr. Brown is having with Mr. Lappin, what Ms. LaVigne says 
about what happens in Maryland, which sounds like it is old-
hat, it sounds like state-of-the-art penology where it is 
possible. It is not possible for Mr. Lappin to do this within 
the system if the system doesn't accommodate the needs of this 
State population. But if we begin to think more broadly and 
more flexibly, it does look like there are things that we can 
do even now, even with no new prison or any close prison to the 
District of Columbia.
    Mr. Fornaci, very disturbing in your testimony was 
something that the Revitalization Act created that is a dead 
letter, it would seem, the Corrections Information Council. It 
was supposed to be a three-member voluntary body--I have no 
idea what ``voluntary body'' refers to--to provide the BOP with 
advice and information regarding matters affecting the District 
of Columbia sentenced felon population.
    Then you say on page 3 that the CIC, this Corrections 
Information Council, has never visited any BOP facility to 
examine conditions or to interview D.C. prisoners--and here is 
the operative part--in part because there has never been a 
memorandum of understanding with BOP.
    You say the District government has failed, also, to 
appoint any members of the CIC since 2004, which means at least 
they had some members before, with last terms expiring in 2006. 
Shame on us.
    But, first, let me understand about this so-called 
memorandum of understanding with BOP.
    Mr. Fornaci. There had been negotiations, is my 
understanding--this was a little bit before my experience--with 
the CIC. They had negotiations with the Bureau of Prisons, and 
there had been discussions, but no agreement was actually 
reached.
    Ms. Norton. Well, let's ask Mr. Lappin, because he is the 
man in charge here at the BOP.
    What would be the difficulty in getting a memorandum of 
understanding so that these people could assist you in matters 
affecting the District of Columbia?
    Mr. Lappin. I am more than happy to sit down with whoever 
is appointed and finish. Because I have, in fact, here a draft 
memorandum from 2004.
    Ms. Norton. You are ready to go with the District.
    Mr. Lappin. Absolutely.
    Ms. Norton. Thank you very much.
    Mr. Lappin. When we have appointed candidates, we will sit 
down with them and try to finish the memorandum and get it in 
place.
    Ms. Norton. Thank you very much.
    It does look like the onus is on the District of Columbia. 
Is anybody here from the District of Columbia? You see the 
disconnect between the District of Columbia. There should at 
least have been somebody here from the District of Columbia. 
Now, we didn't notify the District of Columbia, but one of the 
things we have to do is to reconnect to the District of 
Columbia.
    You can see why the disconnect would occur. The District of 
Columbia said, ``Take this package off of us. We can't pay for 
it.'' The District had good reason to do that. It was carrying 
a State function that no city in the United States carries, 
State prisons. And of course it wasn't funding them. The last 
thing to get funded was Lorton.
    Well, when you go to a Federal--to become essentially a 
part of a Federal agency, unless somebody is trying very hard 
in the District of Columbia, you say, well, you know, that is 
off my plate now. So one of our missions, along with yours, is 
to reconnect the District of Columbia, because I have every 
reason to believe the District of Columbia wants to be 
reconnected. So we are going to take that on, as well, Mr. 
Lappin, and I appreciate your testimony in that regard.
    It is important to clarify, Mr. Fornaci, what you said 
about--in another part of your testimony. Very disturbing to 
hear that, 2008, 1,700 people were sent to BOP on parole 
revocations, overwhelmingly technical or administrative in 
nature, no new criminal behavior.
    No wonder you are overcrowded, Mr. Lappin.
    Now, we are working with the parole board. Mr. Fornaci, 
what do you think could be done about these people being sent 
away on technical and administrative violations? Is this a 
problem coming from their re-entry, or is there a change in 
regulations or law required here?
    Mr. Fornaci. Well, I think there are a couple issues.
    One of the problems is, the law does not permit the 
District of Columbia to change its own parole laws at this 
point. It is not permitted to make any changes in its laws 
regarding parole without the consent of the United States----
    Ms. Norton. Well, that, Mr. Fornaci, I can understand your 
frustration, but you have here overlapping jurisdiction. Here, 
the parole board is a Federal board. This is Mr. Lappin's 
challenge, too. You can't say, take these people into Federal 
custody, and not treat them in any way as if they are within a 
Federal agency.
    Mr. Fornaci. Certainly. And I certainly understand that. My 
point really is that, for instance, if the District of Columbia 
council decided that technical violations--that is, positive 
urine sample for marijuana or missing appointments with a 
parole officer--should not result in incarceration but instead 
some other alternative----
    Ms. Norton. Well, District government wouldn't have to 
decide that. Couldn't the parole board decide that?
    Mr. Fornaci. But that would be a non-district agency, and 
that has not been the U.S. Parole Commission's inclination to 
do that.
    Ms. Norton. Well, the U.S. Parole Commission--I beg to 
differ--has a new chairman, a former police chief of the 
District of Columbia, who has, in fact, begun even before he 
was named chairman of the board by President Obama, when he was 
a member of the commission has, in fact, begun to use methods 
other than putting someone right back in prison for a technical 
violation.
    Ms. Poteat, are you aware of some of what the man I still 
call Chief Fulwood is doing at the U.S. Parole Board?
    Ms. Poteat. Yes.
    And I would like to speak to Mr. Fornaci's remarks. Just so 
that he will know, in a testimony prior to this we talked about 
a new venture that Court Services has taken on, and that is 
dealing with our technical violators who have substance abuse 
and new criminal charges that are minor, Category 1 or Category 
2. And we have placed them in the correctional treatment 
facility for 180 days. And they do not face revocation if they 
complete the program; they are returned to the community.
    It is only in a pilot stage. It is only 32 beds, that 
hopefully we plan to expand to 96 beds. And this is also in 
collaboration with the U.S. Parole Commission, the Public 
Defender Service, the Bureau of Prisons, and D.C. Department of 
Corrections. So that is one of the things.
    The other thing is that we are still working on the 
sanctions matrix to identify and make sure that all of us, 
including the courts, are in agreement with the sanctions to 
make sure all of them have been applied before we ask for 
revocation for the D.C. prisoners.
    Ms. Norton. This of course is not what Ms. Poteat is 
saying. Some of it is pilot. It's not all well known. But it 
does show the kind of innovation that it's going to take if we 
are going to have State prisoners in this Federal system. And 
the reason I don't want to go to the City Council and then go 
to this is because I think most of what we're discussing here 
today can be done with administrative innovation without 
changes in law and getting all bollixed up in who has 
jurisdiction and whatever.
    Look, D.C. has said you all got jurisdiction. We don't want 
to pay for these prisoners. Whenever I've asked the D.C. 
Council to do anything, as I did, Mr. Lappin will remember, as 
we had to do with the state-of-the-art drug program, the 
problem was on the D.C. side. D.C. did it instantly. This is an 
administrative problem. Mr. Lappin has shown an extraordinary 
ability to deal administratively with the problems we've 
brought to his attention, and the testimony here has been very 
encouraging.
    Mr. Fornaci, you talk about the release of prisoners from 
the Sellmon case.
    Mr. Fornaci. Yes, ma'am.
    Ms. Norton. Would you elaborate on what that means for 
reentry and what the Sellmon case, Sellmon v. Reilly means for 
the Bureau of Prisons and for the District of Columbia?
    Mr. Fornaci. Certainly. Sellmon v. Reilly was decided in 
2008, when the District Court found that the U.S. Parole 
Commission was using the wrong standards in determining who 
should be paroled. So that was changed. And as a result, 
throughout 2009 and early 2010, the U.S. Parole Commission, 
through extreme pressure, has agreed to a lot of remedial 
hearings for people to release them. This is an approximately 
600 to 700 extra hearings were held in about a 3 or 4-month 
span, the end of 2009, early 2010. And that was in fact when 
Mr. Sawyer was released. These folks have all been held at 
least 12 years and as many as 25 years, the folks affected by 
the Sellmon decision. So they're all long-term prisoners. And 
with the impact as is happening now, it's about a 50 percent or 
so increase in releases for about 6 to 8 months this year and 
tapering off. There will still be more in the future affected 
by this decision, but the larger number is this year.
    Mr. Norton. And so these people are coming straight out as 
a result of these hearings?
    Mr. Fornaci. Through the normal process. They're going to 
the halfway houses or----
    Ms. Norton. Yes. They will come out from wherever they 
happen to be located?
    Mr. Fornaci. Yes. And it's important to realize also that 
the regulations under which they're being released they have 
been found through evidence of rehabilitation. There have no 
disciplinary problems, no disciplinary issues, they have been 
in programming. So they've been ruled by the Commission to be a 
safe release. So they're not representing a danger of any kind.
    Ms. Norton. Because if they're not a safe release then 
they're not released under this program, under Sellmon?
    Mr. Fornaci. Yes.
    Ms. Norton. Yes, Ms. Poteat.
    Ms. Poteat. We did a profile for all of the cases so we 
wanted to be proactive in that in working with the Bureau of 
Prisons so we'll know who exactly is coming out and if you'd 
like I can just give you a quick overview of what we have.
    The average age for this population is 43. 10 percent of 
them are age 56 or older. The youngest person is 30 years of 
age. 56 percent of them will have less than a high school 
diploma or GED. 73 percent of them are unemployed. 50 percent 
have very limited employment opportunities. 30 percent are in 
need of stable housing. 83 percent of them have a history of 
some type of violence. 38 percent have a history of property 
crimes. 34 have a history of drug-related crimes, and 24 
percent have a history of weapon offenses. And then 66 percent 
have a history of illicit drug usage, mostly marijuana, 
cocaine, and PCP. 34 percent have a history of alcohol use, and 
9 percent have a need for behavior health services. 60 percent 
report having children and 9 or 10 of them are dependent 
children. 12 percent of them reported children living in the 
same household.
    So we wanted to get some kind of profiles to see what we 
needed, the services we needed to provide for them once they 
are released.
    Ms. Norton. Very useful. You see what we're talking about. 
We're talking about older prisoners, not particularly prepared 
to get out, thought they were going to be in longer, BOP had 
every reason to think they would be in longer. They're going to 
come home with very little preparation. And of course your 
profile points up what Mr. Lappin has absorbed.
    These are local street criminals. These do not fit the 
profile of your average Federal prisoner. Yes, there are some 
street criminals in Federal prison. But these fit much more the 
profile of Los Angeles State prison, Maryland State prison, New 
York State prison than they do your average Federal prison.
    And when these prisoners are mixed in with other prisoners 
there have been reports that there have been disturbances and 
problems, have there not, Mr. Lappin, of placing these 
prisoners of this profile? You heard 80 some percent have 
weapons offenses. I mean, these are not folks just toting some 
drugs, Mr. Lappin. These are honest to goodness folks who got 
in some big trouble in the District of Columbia. You just mix 
them in with folks in Federal prisons of various types, and you 
sometimes have had problems with that in your prisons, with the 
result that you transfer out folks all around the country. 
Isn't that so?
    Mr. Lappin. It is to some degree, although over the last 20 
years we have acquired a much more violent offender of our own 
with the passage of the Federal drug laws, the firearms 
violations. The classification system should put them in 
prisons with like inmates.
    So again, it is true that we've had some disturbances, some 
problems. I can't say it's unique just to the D.C. inmates. We 
have other groups that have been problematic, whether they're 
Caucasian groups or Hispanic groups alike. So it's a 
combination.
    Ms. Norton. I understand, sir. I understand. I can tell you 
this. I think that the Bureau of Prisons, given it's long 
history, it's effective history I might add, in this country, 
if we challenge the Bureau of Prisons to house D.C. inmates in 
a prison, to segregate them accordingly, and to deal with them 
as a State prison system within the Federal system, given your 
long record of success in state-of-the-art technology, whether 
you think you could do it, I think your record speaks for 
itself and that it could be done.
    Now, I want to put on the record who these two men are who 
have agreed to come and testify because we didn't just want 
them to testify thirdhand. They have experience that needs to 
be on the record. Let's start with Mr. Cook.
    Mr. Cook, you live in the District. How old are you?
    Mr. Cook. Thirty-nine.
    Ms. Norton. When were you released from what prison? What 
prison were you released from to come home?
    Mr. Cook. Cumberland, MD.
    Ms. Norton. From Cumberland, MD?
    Mr. Cook. Yes.
    Ms. Norton. How many years have you spent in prison?
    Mr. Cook. Eight.
    Ms. Norton. Eight of your 39 years. Who do you live with in 
the District of Columbia?
    Mr. Cook. My sister.
    Ms. Norton. You're very fortunate that you have a relative.
    What was your last job? What kind of work were you doing? 
Do you remember?
    Mr. Cook. Yeah, it was--I was working--at the time it was 
called the MCI Center.
    Ms. Norton. What were you doing?
    Mr. Cook. It was janitorial work.
    Ms. Norton. Do you have any children?
    Mr. Cook. Yes.
    Ms. Norton. How many prisons have you been in in the Bureau 
of Prisons?
    Mr. Cook. Five.
    Ms. Norton. Five prisons in a term of how many years, Mr. 
Cook? How many years were you in the Bureau of Prisons?
    Mr. Cook. 8.
    Ms. Norton. So five prisons in 8 years. What was your first 
contact with your family? Was it when you were home for the 
first time or did you have some kind of, like, physical contact 
with somebody coming to see you? Did people come to Cumberland 
to see you?
    Mr. Cook. Yeah.
    Ms. Norton. Were they more likely to come to Cumberland 
than when you were at the other four places you were?
    Mr. Cook. Yes.
    Ms. Norton. Did that help your reentry? Did it help you to 
get used to being home and to prepare to come home, to see 
someone, to have some contact with family?
    Mr. Cook. No.
    Ms. Norton. Why not?
    Mr. Cook. Because what drove me is I wanted to be home 
myself. But it was a plus to have them to come down there. But 
after a while you start looking at things. We much older, so 
they can only do but so much. Everything else falls on us.
    Ms. Norton. Do you receive services, Mr. Cook? Now that 
you're home from court services, CSOSA or from the District of 
Columbia or any services at all?
    Mr. Cook. No. As far as, you mean, as far as my supervision 
or something?
    Ms. Norton. No. Anybody helping, any services to help you 
find a job? Do the people who render supervision help you in 
any way?
    Mr. Cook. Well, they put me in programs, as far as, you 
know, outreach programs and stuff. But most times I do it 
myself.
    Ms. Norton. Mr. Cook, what were you sent to prison for? 
What was the offense?
    Mr. Cook. Robbery.
    Ms. Norton. Robbery.
    Mr. Sawyer.
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton. What was the offense for which you did time, 
and how much time did you do?
    Mr. Sawyer. Murder One; 25 years, ma'am.
    Ms. Norton. How many prisons were you, in your 25 years, 
how many prisons of the BOP? Were you in Lorton first?
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton. Once you were transferred from Lorton to the 
Bureau of Prisons, how many Bureau of Prisons were you in?
    Mr. Sawyer. Two.
    Ms. Norton. And what were they?
    Mr. Sawyer. In 2002, U.S. penitentiary in Lee County, 
Jonesville, VA, and in November 2007, the Federal correctional 
institution in Allenwood in White Deer, PA.
    Ms. Norton. Are you now at Hope Village?
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton. This is a halfway house?
    Mr. Sawyer. That is correct.
    Ms. Norton. Of the Bureau of Prisons----
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton. How old are you, Mr. Sawyer?
    Mr. Sawyer. Forty-nine, ma'am.
    Ms. Norton. Now, you are one of the so-called Sellmon cases 
that Mr. Fornaci testified about.
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton. Did you expect to be released when you were? In 
other words, along comes this District Court decision. Who 
informed you that you might be subject to release?
    Mr. Sawyer. Well, Madam, this was my rehearing. In December 
2005, I went up for my initial, and at that time I was given a 
36-month set-off. And December 2008 was my rehearing. And it 
didn't occur until April 2009.
    Ms. Norton. Well, that's--you had to have two hearings.
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton. Why were two hearings necessary, Mr. Sawyer?
    Mr. Sawyer. For the first one it was denied parole because 
of the ceiling factor.
    Ms. Norton. Because of the what?
    Mr. Sawyer. The ceiling factor, in which the number of 
months that I had not served based on the U.S. Parole 
Commission's guidelines versus the D.C. Parole Board's 
guidelines.
    Ms. Norton. But upon rehearing----
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton [continuing]. It was decided that you were 
eligible for release.
    Mr. Sawyer. That is correct.
    Ms. Norton. How much sooner were you released than you 
expected?
    Mr. Sawyer. Well, I had initiated the thought of going home 
in my first hearing.
    Ms. Norton. No, I'm sorry. Before the Sellmon case. Were 
you sentenced to 25 years?
    Mr. Sawyer. No, I was sentenced to 22 years, 4 months to 
life.
    Ms. Norton. Twenty-two years, 4 months to life.
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton. All right. So you did not expect, whether the 
first hearing or the second hearing, to be out of prison when 
you were released; is that right?
    Mr. Sawyer. Oh, no, ma'am. I expected it.
    Ms. Norton. You did expect it?
    Mr. Sawyer. Yes, ma'am. Most definitely.
    Ms. Norton. Why did you expect it? The Sellmon case came 
along making it possible for you to come out earlier than might 
otherwise have occurred, is that not true?
    Mr. Sawyer. Well, Madam, according to what I was asked to 
do, and to program to stay disciplinary free, and in my 25 
years I have done just that, and based on the first hearing, 
all that was in place, recommendations and persons who spoke on 
my behalf, it was expected that parole would be granted, but it 
wasn't.
    Ms. Norton. Based on your good conduct, the way you 
conducted yourself as a man in that prison?
    Mr. Sawyer. That is correct.
    Ms. Norton. Sir----
    Mr. Sawyer. Ma'am.
    Ms. Norton [continuing]. Did you have contact with your 
family while, at any time when were you at the Bureau of 
Prisons facilities.
    Mr. Sawyer. Yes, ma'am. I had family visits, not often, but 
at the U.S. penitentiary in Lee County, for it took them 13 to 
14 hours to come from the Nation's Capital to Jonesville, VA, 
and they would travel overnight on a bus excursion where one of 
the gentleman in our prisons would run a bus service once or 
twice, maybe four times a year, and they would run a bus and 
they would stay overnight, come, leave that Friday night, stay 
all day Saturday, go to the hotel, come back on Sunday, spend 
time with the gentlemen who were in prison and then travel back 
to the Nation's Capital on Sunday night and return.
    Ms. Norton. Have mercy. Who was kind enough to conduct that 
bus service? Was that you, Mr. Lappin? Was it CSOSA?
    Mr. Lappin. No, not us.
    Ms. Poteat. No, ma'am.
    Mr. Sawyer. This was a private entity.
    Ms. Norton. That was doing this in order to enable these 
families?
    Mr. Sawyer. Yes.
    Ms. Norton. And of course they have to pay to go on this, 
somebody had to pay for it?
    Mr. Sawyer. No more than $45 to $50.
    Ms. Norton. No more than $45 to $50 and 13 or 14 hours to 
see a loved one. There was some loving members of that family.
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton. You were fortunate, indeed, given that kind of 
long trip. When I went to Rivers, that was 4 hours each way. I 
thought I would kill myself before I got back. Riding along 
those roads in a van that I very much appreciate that the 
Bureau of Prisons provided it, but the distance made me wonder 
for the parents, no matter how, or relatives, no matter how it 
was facilitated for them to get there. It's an exhausting trip 
to come so far.
    Mr. Sawyer. Yes, ma'am.
    Ms. Norton. Now you have services provided by, such as are 
available of course at Hope Village. Was there any preparation 
provided, any services provided to prepare you to come home 
during the months before you were released?
    Mr. Sawyer. No more than I secured for myself.
    Ms. Norton. Meaning?
    Mr. Sawyer. The letters that I've written to organizations 
here, faith-based reentry, those type of letters to those 
organizations and having those persons write back.
    Ms. Norton. But nothing like you've heard testified that 
Mr. Brown did when he served in the State of Maryland and the 
prisoners were brought from Maryland, brought to Baltimore for 
reentry for several months before they came home; nothing like 
that was done for you?
    Mr. Sawyer. No, ma'am. And it would be welcome if it would 
have been.
    Ms. Norton. Nor did you have access to the Court Services, 
CSOSA as we call it, at all in any way?
    Mr. Sawyer. Only with the letter writing campaign, and I 
did write to the faith-based mentoring initiatives, and Mrs. 
Christine Keels returned my letter and we had dialog once or 
twice by letter. And when I returned home I did contact her, 
and she and I have been in contact ever since.
    Ms. Norton. Mr. Cook and Mr. Sawyer, you are both very 
motivated men. And we find that when people arrive their 
motivation is at a very high level. And if it's at a high level 
when they arrive in D.C., we cannot imagine how much good would 
be done if we had something like what Mr. Brown is talking 
about so that a few months beforehand, instead of slapping you 
right back in the midst of your hometown, you had some 
preparation.
    Your testimony has been invaluable. It has helped. I think 
Mr. Lappin learned more about what happens. After all, he has 
responsibility for many thousands more who have nothing to do 
with the District of Columbia and we're putting a very special 
burden on him. To have Mr. Brown fortuitously here, we're so 
pleased, Mr. Brown, that although you were not invited to this 
hearing because it was about Federal matters, that you were 
interested enough to come, because it turns out that you have 
helped us in some considerable ways to move forward so this 
hearing is not just about talk, but about accomplishing 
something.
    The testimony of each of you has been invaluable by--almost 
inevitably the official witnesses get most of the questions 
because they are the people who are responsible. But all of you 
have offered testimony that has been indispensable to our 
understanding of what is possible and how to make this system 
work within the confines that Mr. Lappin must address.
    I repeat, we're not seeking release from the Federal prison 
system. We have great respect for the Federal prison system. 
Even in my opening testimony, where I talked about where the 
Federal prison system isn't preparing the vocational programs, 
which I happen to have seen and appreciate, they're all state-
of-the-art programs. You have to understand what BOP does. It 
doesn't just smack a program down. It then tests it and retests 
it. It keeps valuable statistics. These people know what 
they're doing. Yes, they couldn't possibly have a vocational 
program in there to match the District of Columbia. What are 
our industries? Tourism, hospitals, the Verizon kinds of job 
that Mr. Cook had. We can't expect Mr. Lappin to reorient 
vocation in the prison system. But what we can do is bring the 
District to Mr. Lappin. We don't want to revolutionize his 
system. We want to work within his system. But we want to work 
within his system as a State system that must, in fact, report 
ultimately to the District of Columbia, its residents and its 
officials who will be responsible if these two men, extremely 
motivated, do not have the preparation necessary for them to 
come home and do what they clearly want to do now, which is 
live law abiding lives.
    This subcommittee, and I can assure you that this chairman 
who has taken great leadership on law enforcement issues since 
he's chaired this committee, I can assure you you will have the 
greatest cooperation from this subcommittee and the full 
committee, if we, in fact, do what the committee believes must 
be done, adapt, be flexible, accommodate us, facilitate us 
within that system for the greater good of our inmates and 
their families and especially the greater good of the residents 
of the District of Columbia.
    This has been a very fruitful, a very useful hearing to 
this subcommittee. Mr. Lappin and Mr. Brown, you are to report 
on your progress on your discussions--we don't expect 
everything to be wrapped up in a neat package, Mr. Lappin, but 
your progress within 30 days to the chairman of this committee. 
Please feel free to have discussions as well with Ms. Poteat 
and CSOSA and others who have served on this panel. The 
subcommittee cannot thank you enough for your indispensable and 
invaluable testimony.
    This hearing is adjourned.
    [Whereupon, at 5:08 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
